<html>
<title> - A HEARING ON THE MARINE VESSEL EMISSIONS REDUCTION ACT OF 2007</title>
<body><pre>[Senate Hearing 110-1239]
[From the U.S. Government Publishing Office]





                                                       S. Hrg. 110-1239

                    A HEARING ON THE MARINE VESSEL 
                    EMISSIONS REDUCTION ACT OF 2007

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 14, 2008

                               __________

  Printed for the use of the Committee on Environment and Public Works







[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




      Available via the World Wide Web: http://www.access.gpo.gov/
                            congress.senate

                               __________

                  U.S. GOVERNMENT PRINTING OFFICE

85-521 PDF                WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED TENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JOHN W. WARNER, Virginia
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
HILLARY RODHAM CLINTON, New York     JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             LARRY E. CRAIG, Idaho
AMY KLOBUCHAR, Minnesota             LAMAR ALEXANDER, Tennessee
SHELDON WHITEHOUSE, Rhode Island     CHRISTOPHER S. BOND, Missouri

       Bettina Poirier, Majority Staff Director and Chief Counsel
                Andrew Wheeler, Minority Staff Director




























                            C O N T E N T S

                              ----------                              
                                                                   Page

                           FEBRUARY 14, 2008
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Vitter, David, U.S. Senator from the State of Louisiana..........    85
Lautenberg, Frank R., U.S. Senator from the State of New Jersey..    91
Cardin, Benjamin L., U.S. Senator from the State of Maryland.....    92

                               WITNESSES

Wood-Thomas, Bryan, Associate Director, Office Of Transportation 
  And Air Quality, Environmental Protection Agency...............    13
    Prepared statement...........................................    16
Ramirez, Jonah, Clean Air Ambassador For Children With 
  Respiratory Disease............................................    27
    Prepared statement...........................................    29
Miller, John G., M.D., Fellow of The American College of 
  Emergency Physicians...........................................    32
    Prepared statement...........................................    34
    Responses to additional questions from Senator Boxer.........    39
 Kassel, Richard, Senior Attorney, Director, Clean Fuels And 
  Vehicles Project, Natural Resources Defense Council............    41
    Prepared statement...........................................    44
    Responses to additional questions from Senator Boxer.........    53
Wells, Ken, President, Offshore Marine Services Association......    56
    Prepared statement...........................................    58
    Responses to additional questions from Senator Boxer.........    60
Chaisson, Joel, Executive Director, Port of South Louisiana......    61
    Prepared statement...........................................    63
Accardo, Joe, Executive Director, Ports Association of Louisiana.    65
    Prepared statement...........................................    67
    Responses to additional questions from Senator Boxer.........    72
Wallerstein, Barry R., Executive Officer, South Coast Air Quality 
  Management District............................................    96
    Prepared statement...........................................    99
    Responses to additional questions from Senator Boxer.........   101
Jackson, Lisa P., Commissioner, New Jersey Department of 
  Environmental Protection.......................................   107
    Prepared statement...........................................   109
    Responses to additional questions from Senator Boxer.........   114
Mouton, Jennifer J., Administrator, Air Quality Assessment 
  Division, Louisiana Office of Environmental Assessment.........   115
    Prepared statement...........................................   117
    Responses to additional questions from Senator Boxer.........   124

 
     A HEARING ON THE MARINE VESSEL EMISSIONS REDUCTION ACT OF 2007

                              ----------                              


                      THURSDAY, FEBRUARY 14, 2008

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full committee met, pursuant to notice, at 10:30 a.m. 
in room 406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the full committee) presiding.
    Present: Senators Boxer, Lautenberg, Vitter and Cardin.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Good morning, everybody. I am very happy. I 
got a Valentine from Jonah, so I am exceedingly happy.
    [Laughter.]
    Senator Boxer. When you meet Jonah, you will see why I am 
so happy to have a Valentine from him.
    What we are going to do today, because we have a lot of 
panels and we want to get through everything is first I want to 
say I apologize for setting this a little later today. We had 
the memorial service for Congressman Lantos, and I really 
wanted to pay my respects at the beginning of that service.
    I am going to place into the record my opening statement.
    [The prepared statement of Senator Boxer follows:]

        Statement of Hon. Barbara Boxer, U.S. Senator from the 
                          State of California

    Today we will hear about the serious health threats to 
children and families from air pollution that pours into our 
port communities from large ships. This is a legislative 
hearing to review a bill that would substantially cut air 
pollution from these ships. We cannot afford to wait for a 
solution to this problem.
    Large ocean going vessels--container ships, tankers, and 
cruise ships--are among the largest contributors to deadly 
diesel air pollution in our port communities. And with 
international trade projected to grow significantly, the 
problem will only get worse, unless something is done soon.
    I am especially concerned about the effects of air 
pollution on the health of those who are most vulnerable: our 
children, our elderly, and people with asthma or other 
diseases.
    I will never forget when I first saw a filter taken from an 
air monitor near the ports of Los Angeles-Long Beach, next to a 
school where children play. When the filter went in, it was 
pure white. Twenty-four hours later, it was totally black. 
That's how much pollution a child's lungs at that elementary 
school would receive in 3 and one half months.
    We all know that ports are powerful economic engines for 
states and the Nation as a whole. They spur business 
development and create jobs.
    My own state's Ports of Los Angeles and Long Beach 
illustrate that point. They handle nearly 45 percent of the 
containerized cargo imported into the U.S., and they help 
sustain the region's economic vitality.
    But ports are also a significant source of pollution from 
ships, harbor equipment, and trucks and trains that move the 
cargo to and from the docks.
    In Southern California, port activities are major 
contributors to smog and soot pollution that are responsible 
for 5,400 premature deaths, 2,400 hospitalizations, 140,000 
incidences of asthma and respiratory problems, and nearly one 
million lost work days each year.
    The diesel engines so prevalent at ports also emit toxic 
air pollutants that can cause cancer and other life-threatening 
diseases. And these harmful effects are disproportionately felt 
by low income families.
    For example, one mother named Martha from the Alliance for 
Children with Asthma recalls one of many frightening visits to 
the emergency room when her son Jose, then only 4 years old, 
struggled to breathe:
    ``We were rushing him to the hospital by car and it is 
really sad to see your son almost die because he cannot 
breathe. His lips and all of his body turned purple. If people 
and the politicians knew how it feels, they would cry with the 
mothers of children with asthma.''
    ``They have to miss school when they are sick and I have to 
miss work to be in the emergency room,'' she says. ``It's very 
difficult. It has affected me in every way.''
    The good news is that we are beginning to see signs of 
progress in reducing port pollution. Citizens, state, and local 
officials are pushing for improvements, and some in industry 
like Maersk are taking voluntary action to reduce their 
emissions.
    But much more progress is needed. Shipping is expected to 
double and even triple in the next two decades as the result of 
global trade agreements.
    Oceangoing ships are subject to international standards, 
but these standards require virtually no control. And our own 
Federal Government has yet to step up to the task of requiring 
these large polluters to make significant emission reductions.
    The Federal Government should strictly regulate these 
ships. Most oceangoing vessels are foreign-owned, and foreign-
flagged ships emit almost 90 percent of the vessel pollution in 
the U.S.
    The Bush administration has been waiting for international 
negotiations to produce tighter standards for big ships. 
Unfortunately, those negotiations have been slow and have not 
yet borne fruit. This has triggered a lawsuit by environmental 
groups over the delays.
    Because of the ongoing health threats and the slow 
government response, I introduced the Marine Vessel Emission 
Reduction Act. Senators Feinstein and Whitehouse have joined me 
in this effort. Our bill requires oceangoing vessels visiting 
U.S. ports to use cleaner fuel and cleaner engines, whether 
they are flagged in the U.S. or elsewhere.
    Our bill would require oceangoing vessels to dramatically 
lower the sulfur content of the fuel they use as they travel to 
and from our ports. Fuel sulfur content would drop from an 
average level of 27,000 parts per million to 1,000 parts per 
million, making a huge difference for our air quality.
    It would also significantly reduce emissions from both new 
and existing engines beginning in 2012 by requiring the use of 
the most advanced technologies.
    Local air officials estimate that our legislation would 
save 700 lives a year in Southern California, and many more 
lives nationally each year.
    We must work hard together to do everything we can to make 
progress on this issue.
    I believe that it is our moral duty to protect the health 
of our children, people with asthma, and all the people of ship 
air pollution. We cannot afford to wait any longer. We must 
protect the health of families in port communities across the 
Nation.
    Senator Boxer. We are going to waive all of them. I am 
going to insert into the record Friends of the Earth testimony, 
which is very strong and positive for us. We greatly appreciate 
that.
    [The referenced document follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Boxer. I just say that we are really taking a look 
at a bill that I authored along with Senator Feinstein, the 
Clean Ports Act, because people are suffering from dirty filthy 
air, frankly, around ports. We have waited long enough to get 
this resolved. We keep waiting for the Administration to sign 
an international treaty. That day has not come.
    In the meantime, people are getting sick, and we have 
quantified the number of cancers and cases of asthma. So this 
isn't a question of some ideological discussion. It is a 
question of health.
    So we really do welcome everybody here, and we will begin 
after I place my testimony in the record, with Bryan Wood-
Thomas, Associate Director, Office of Transportation and Air 
Quality at the Environmental Protection Agency.
    Welcome, sir.

 STATEMENT OF BRYAN WOOD-THOMAS, ASSOCIATE DIRECTOR, OFFICE OF 
TRANSPORTATION AND AIR QUALITY, ENVIRONMENTAL PROTECTION AGENCY

    Mr. Wood-Thomas. Madam Chairman, thank you. It is a 
pleasure to be here today. I very much appreciate the 
opportunity to testify on this important issue.
    In addition to my role as Associate Director of EPA's 
Office of Transportation and Air Quality, I also lead our 
negotiation efforts at the International Maritime Organization 
and chair the work group currently responsible for those 
negotiations.
    I would like to first set some context for this important 
issue that we are here today to discuss. In the mid-1990's, few 
parties considered air emissions from ships as a significant 
source of pollution. Indeed, most players reasoned that ships 
must constitute a minor source since the absolute number of 
ships is relatively modest and the common perception was that 
these ships spent most of their time far out to sea.
    This perception was made easier by the fact that very 
little data existed regarding the specific emissions generated 
by vessels. It should come as no surprise to members of this 
Committee that this perception is changing and changing 
dramatically. Marine vessels already are a significant source 
of air pollution in the U.S. and their relative contribution is 
growing rapidly.
    If we consider emissions within our exclusive economic 
zone, marine vessels accounted for approximately 13 percent of 
NO<INF>x</INF>, 17 percent of PM<INF>2.5</INF> and 50 percent 
of SO<INF>x</INF> emissions in 2001. By 2030, we expect that 
vessels will contribute about 46 percent of oxides of nitrogen, 
52 percent of particulate matter, and 95 percent of sulfur 
oxides.
    This is a function of two principal trends. First, other 
sources are becoming dramatically cleaner. Second, the growth 
of international trade is driving an increase in marine traffic 
that is impressive by any yardstick. Annual growth rates across 
the world fleet average more than 3 percent, and container 
traffic is growing at roughly 10 percent per annum.
    If we look at this from the U.S. perspective, we have 
currently more than 40 U.S. ports that are located in non-
attainment areas for ozone or fine particulates or both. We are 
working closely with the Coast Guard, MARAD, other stakeholders 
to see how we can advance admissions standards for these 
sources.
    In April, 2007, EPA proposed a rule to adopt two new tiers 
of exhaust emission standards for smaller and medium-speed 
engines. The proposal when implemented will result in PM 
reductions of about 90 percent and NO<INF>x</INF> reductions of 
about 80 percent. We expect this rule to be finalized in the 
very near future, indeed measured in weeks.
    Slow-speed category three engines are those that are most 
commonly used on ships engaged in international trade. These 
engines are massive in scale and they represent a significant 
source of NO<INF>x</INF> emissions, with studies estimating 18 
percent or more of total NO<INF>x</INF> emissions worldwide.
    As you are aware, the U.S. is currently engaged in 
negotiations at the IMO, and in February of last year the U.S. 
submitted a proposal to the IMO for establishing new tighter 
standards. The proposal represents the most comprehensive 
approach ever taken to address air pollution from ships, and it 
has gained considerable support from governments across the 
globe and from numerous non-government organizations.
    Last week in London, the IMO subcommittee agreed to tier 
two and tier three NO<INF>x</INF> standards for new ships. 
Beginning in 2011, we would see a reduction of approximately 20 
percent in NO<INF>x</INF> beyond the existing standards, but 
more importantly the tier three standards, beginning in 2016, 
would require NO<INF>x</INF> reductions more than 80 percent 
from tier one, bringing us to a cumulative reduction in excess 
of 90 percent from pre-2000 levels.
    Like the proposed legislation before us today, the U.S. 
proposal also includes stringent new SO<INF>x</INF> and PM 
reductions. We are advocating the use of low-sulfur distillate 
fuels at 1000 ppm applicable to ships operating in specific 
areas near the coast. If we are successful in this adoption, we 
will see 95 percent reduction in SO<INF>x</INF> and significant 
PM reductions as well, beginning in the 2011-2012 timeframe.
    As evidenced by last week's agreement, we are seeing a 
broadening base of support for the U.S. proposal. Given 
developments last week, we will now focus our negotiating 
efforts on existing engines and agreement on sulfur and PM 
standards that should address the serious air quality needs we 
face here in the United States.
    While there has been considerable movement at the IMO in 
support of more stringent standards, and specifically what the 
United States has advocated, it is important that I note we are 
not yet a party to Annex VI, and indeed our success in the 
current negotiations will be threatened if we fail to submit 
our instrument of ratification.
    As you know, the House has passed H.R. 802 last March. This 
bill would amend the Act to prevent pollution from ships. The 
Senate has not yet acted on this bill. Please understand that 
failure to act on the MARPOL implementing legislation will 
weaken our position in London and mean that we will not have a 
vote in the upcoming final debate.
    Senator Boxer. Could you wrap in a minute please?
    Mr. Wood-Thomas. Certainly.
    Senator Boxer. OK.
    Mr. Wood-Thomas. Given these developments, we are hopeful 
for a satisfactory outcome in London. If not, we will move to 
rely on our domestic authorities. Turning specifically to S. 
1499, let me note that the Administration does not have an 
official position on the bill, but I should also note that the 
bill is generally consistent with the framework of the U.S. 
proposal to the IMO and introduction of the bill has helped 
demonstrate commitment in the U.S. to addressing this issue.
    Thank you for the opportunity to testify here this morning. 
I would be happy to address any questions that you or members 
of the committee may have.
    [The prepared statement of Mr. Wood-Thomas follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Boxer. OK.
    I guess the frustrating thing to me is that we started 
negotiating for this international agreement in 2003, and it is 
2008. Kids are getting asthma. People are getting cancer. The 
ports are growing and I thought your testimony was solid 
testimony. Your clear testimony is that this is only going to 
get worse, and you show us the great increases, that we are 
going to 46 percent of nitrogen oxides will come from the 
commercial marine vessels by 2030, and 52 percent of soot, and 
95 percent of sulfur oxides from all mobile sources.
    So I think your testimony is strong, but the actions of the 
EPA, I just don't get it. Our people are suffering because 
foreign flags are coming in and they are filthy and they are 
polluting. And we are sitting back saying, well, we just can't 
do anything until we get this international agreement. I don't 
get it.
    Do you support the bill that the House sent over? And do 
you support my bill and Senator Feinstein's bill that would say 
you just can't come into a port until you change the fuel?
    Mr. Wood-Thomas. Thank you, Senator.
    Senator Boxer. Yes.
    Mr. Wood-Thomas. The Administration does not have an 
official position on the bill before us, but as noted, 
certainly the approach outlined in the legislation is largely 
consistent with the approach we are advocating. Indeed, we are 
arguing for 1,000 parts per million to be applied as is 
contained in the draft legislation.
    Senator Boxer. OK. Well, I am very heartened that you said 
that, but it doesn't change the fact that nothing is happening 
for 5 years. And so I am going to just ask you to take this 
back to Mr. Johnson, and to, if you can get the ear of the 
President and his people, that it would be a tremendous legacy 
if this Administration said we are ready to move right here.
    Why should our people suffer because the foreign flags are 
using the filthiest bunker fuel? It is bunker fuel, isn't it? 
Why? When all they have to do is when they get to a certain 
point, just change over to a clean fuel. It is a fairly simple 
point.
    So the fact is, I love that we are in agreement on the 
eventual level that should be allowed in terms of the 
pollution. I am glad we are in agreement, but it doesn't give 
my people great solace to know that it has gone on for 5 years 
of international negotiation to no end. Do you have any idea of 
an end-date here? What are you looking for? What are you 
working toward?
    Mr. Wood-Thomas. We are expecting completion of the 
negotiation in October.
    Senator Boxer. OK. Well, then we will call you back in 
September to get a report, and we hope that you will sit there 
with a great big smile on your face, because I know you want to 
get this done. But I will tell you, we have to get it done 
because people are suffering.
    And then the other question that we are concerned about is 
that our understanding is that the options that are before the 
international organization do not match what we want. Are you 
concerned about that?
    Mr. Wood-Thomas. With respect to the options before the 
committee in London, we reached agreement last week on the 
NO<INF>x</INF> standards for new builds, fully consistent with 
what we have argued for as the United States.
    Senator Boxer. Good.
    Mr. Wood-Thomas. With respect to the sulfur and PM-related 
issues, we narrowed those options to three last week. The 
second option is essentially the United States proposal.
    Senator Boxer. Are we talking about new ships?
    Mr. Wood-Thomas. This would apply to all ships with respect 
to sulfur and PM.
    Senator Boxer. OK, good.
    Mr. Wood-Thomas. With respect to NO<INF>x</INF>, the 
agreement last week is with respect to new ships, new builds.
    Senator Boxer. So NO<INF>x</INF> does not go back?
    Mr. Wood-Thomas. We have agreement in the subcommittee with 
no square brackets, and we intend to the best of our efforts to 
maintain that agreement.
    Senator Boxer. Well, so you are saying that what you are 
negotiating does not go as far as my bill in terms of 
NO<INF>x</INF>.
    Mr. Wood-Thomas. With respect to the agreement on 
NO<INF>x</INF> for new builds, yes.
    Senator Boxer. I am not talking about new builds.
    Mr. Wood-Thomas. On existing engines, that will be a 
further point of debate in the first week of April. We are 
pressing to try and reach agreement on retrofit standards 
applicable to existing ships.
    Senator Boxer. That is extremely important, because these 
ships hang around. I would hope, if there is a chance, and I 
don't know what your schedule is, if you could just hear our 
next panel, our little boy on the next panel who is now turning 
into a big boy, actually, I think it would be wonderful, so 
that you could take back the urgency of this matter. This is so 
not ideological. This is so real. This is hurting people.
    Do you have a chance, Mr. Wood-Thomas, to stay just for 
that little boy's testimony?
    Mr. Wood-Thomas. Certainly.
    Senator Boxer. It would be meaningful to me. Thank you very 
much.
    OK. We are going to take our third panel now. So Dr. John 
Miller, Jonah Ramirez, Richard Kassel, Joe Accardo, Joel 
Chaisson, and Ken Wells.
    I say to our second panel, you will come right after that. 
So if you would take your seats as quickly as possible.
    And Mr. Wood-Thomas, if you could tell your friends in the 
international community that the way things are going with 
November and changes, that I said, not you said, that stronger 
regulations are coming one way or the other. We are going to 
make sure those foreign flags do the right thing in our ports. 
So if you could tell them they ought to act now, rather than 
have to be subjected to American law that is different, because 
that is what is coming down the pike. I thank you so much, and 
I thank you for your strong testimony and for staying to hear 
our panel.
    And you know what? Jonah, do you mind going first? Do you 
mind? Because I wanted so much to have Mr. Wood-Thomas hear 
you, and he may have a busy schedule. So Jonah, you are on with 
your testimony.

 STATEMENT OF JONAH RAMIREZ, CLEAN AIR AMBASSADOR FOR CHILDREN 
                    WITH RESPIRATORY DISEASE

    Mr. Ramirez. OK. Well, good morning.
    First of all, I would like to thank Senator Boxer for 
inviting me here to speak to you today. Anytime the Senator 
invites you to speak at her hearing, it is quite an honor, but 
it is even more so when you are a sixth-grader.
    Today, I am here to testify not as a 12-year-old boy, but 
as a victim--a victim of pollution, a victim of the air I 
breathe, a young boy who has been forced to grow up way too 
fast. I have asthma. I wasn't born with it. I developed it. I 
developed asthma by breathing dirty air. You see, the place I 
call home, the place where I have always felt safe, felt free 
to run around, play and be myself received failing grades last 
year in almost all categories in the American Lung 
Association's State of the Air Report.
    With this said, I believe it is fair to State the laws we 
have now, the laws that we believe protect us, are way too 
lenient. Our current laws permit heavy exhaust, smoke and 
debris to be considered safe. Safe? If these particles that I 
breathe every day are safe, then why do I depend on daily 
medication and the fast relief of my inhaler to do something 
that everyone has the right to do: breathe.
    I live in San Bernardino County, but at the ports, large 
ships from other countries come in and are the largest 
unregulated sources of pollutants in Southern California. Why? 
The high level of sulfur in the marine fuels causes ships to 
produce over half of the sulfur oxides pollution in Southern 
California. That is one of the major components of soot and 
smog. Then it blows across to where I live and I can't breathe.
    When I was younger, I played with GI Joes. Most boys do. 
Well, a boy in New Jersey or Georgia or even here in 
Washington, DC. will pay about $17 for a GI Joe shipped from 
China. But the cost to me is much higher. Because of all that 
soot and smog pollution blowing across Southern California, I 
pay with my health.
    Since I developed asthma, I have learned a lot about the 
air we all breathe. I have learned that we all need to do 
something because our air is making us sick. Breathing is a 
common bond we share, something we all do. It should not be 
something we have to think about, but the reality is some of us 
do need to think about it. We need to change the way we see air 
quality. It is not just a topic on the news. It is affecting 
all of us. Our dirty air is shortening our lives. It is 
shortening the lives of our children. Nearly five million 
Californians suffer from asthma, five million.
    Over the past 5 years, I have testified at the AQMD urging 
lawmakers to change laws regarding air quality. I have 
testified at an EPA hearing at San Francisco and, more 
recently, one in Los Angeles asking legislators to make drastic 
changes in laws regarding air quality. I have spoken to the 
press on numerous occasions expressing my concern for people, 
especially children, all over the world who are forced to 
breathe such polluted air.
    I have appeared on TV twice sharing my knowledge of asthma 
and air quality and the relationships that, unfortunately, they 
share. Last April, I introduced our Governor at the Small World 
Asthma Conference at Disneyland, California. Now today, I speak 
to you at the same hearing as Senator Boxer.
    Look at me. I am the face of asthma, but not just asthma. I 
have become the fact of the asthma-air quality relationship. I 
am the face of our future, our future if our laws remain 
unchanged. I am a direct product of our environment, an 
environment that we helped create and we need to repair with 
your help.
    Every one of us needs to take steps to reduce air 
pollution. I have and I am 12. Together, let's make my dream of 
breathing clean, pollution-free air a reality. Please support 
us by approving the Marine Vessel bill by Senator Boxer.
    I thank you from the bottom of my lungs.
    [The prepared statement of Mr. Ramirez follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Boxer. Jonah, thank you.
    I wanted to mention that a couple of colleagues came in. 
Senator Lautenberg, Jonah, you should know, is so passionate on 
cleaning the air because he has a lot of kids and grandkids, 
and one of his grandchildren has asthma. And so he is so strong 
on it, and I can see why. You really make us think about the 
consequences of our actions or inactions. I just want to thank 
you so much for being here.
    I also want to say to Mr. Wood-Thomas, thank you so much 
for staying because I could try to explain this, but I can't. 
This is what we need. And you ought to note that Jonah is the 
Clean Air Ambassador for children with respiratory disease, and 
we are so glad you are here. So stay there, Jonah.
    And now we are going to call on Dr. Miller next.
    Senator Lautenberg. May I interrupt for 1 second, Madam 
Chairman?
    Senator Boxer. Yes, you may, certainly.
    Senator Lautenberg. Jonah, thank you for speaking for my 
grandson, Alexander. Your delivery of your message, I hate to 
say this in front of the older folks here, but it was one of 
the best that I have ever heard. I congratulate you and I urge 
you to keep on fighting until the day when you take your seat 
here. Thank you.
    Mr. Ramirez. Thank you.
    [Laughter.]
    Senator Boxer. Thank you very much.
    Dr. Miller.

   STATEMENT OF JOHN G. MILLER, M.D., FELLOW OF THE AMERICAN 
                COLLEGE OF EMERGENCY PHYSICIANS

    Dr. Miller. Good morning. I am honored to be able to speak 
after Jonah here.
    I am Dr. John G. Miller. I am an emergency room physician. 
I live in the diesel death zone in the Los Angeles port town of 
San Pedro. I have practiced in various emergency departments on 
the South Coast air basin for more than 30 years. Thank you for 
this opportunity to testify. I am speaking in support of this 
bill, but I will give a clinician's perspective on why it 
should be enacted.
    The bill addresses a serious problem we have in Souther 
California. The twin ports of Los Angeles and Long Beach have 
been identified as contributing 25 percent of the total air 
pollution in the region, with the majority of this attributable 
to ships. Large foreign-owned or flagged ships have had a free 
ride. They are allowed to use our air as their toxic dumping 
site, yet local land-based businesses have been heavily 
regulated to prevent this.
    International standards for pollution from ship engines 
written mostly by the shipping industry itself are so lax as to 
be meaningless. In the diesel death zone that I live in, we 
have a broad swath of severe air pollution that extends from 
the ports inland across the air basin that adversely affects 
the lives and health of over 14 million citizens. This ugly 
swath of pollution disproportionately affects lower-income and 
predominantly minority communities in places such as 
Wilmington, Compton, Carson, South Central and East Los 
Angeles. This is clear documentation of a serious environmental 
justice issue.
    The medical literature on the harmful effects of air 
pollution is vast and growing. Many important studies were done 
in L.A. at USC and UCLA Schools of Medicine. Cancer, heart 
attacks, strokes, chronic obstructive pulmonary disease, and 
asthma are major killers, as are sudden infant death syndrome, 
low birth weight infants, and serious perinatal congenital 
anomalies. These killers are related to air pollution in a 
largely simple linear fashion with no known lower threshold of 
safe exposure. More pollution means more disease, death and 
costs to our society.
    The first person I saw die from asthma was when I was a 
medicine intern at L.A. County General Hospital. On a smoggy 
day, a 22 year old woman came in with a severe asthma attack. 
She died before we could save her. It turned out that she was 
the sister of one of our respiratory therapists at the 
hospital. I will never forget having to tell her sister.
    It keeps happening. I have certainly treated cases, seen 
fatalities, that appear to be pollution-related. Recently on a 
routine busy night in the ER, we got a sudden call from the 
paramedics. They were bringing in a 14 year old boy in full 
cardiopulmonary arrest due to a severe asthma attack. Two 
minutes away, we got as prepared as we could in 120 seconds, 
and soon we were in the hand-to-hand struggle with death and 
destruction that we often fight.
    This child survived despite the severity of his condition. 
But in many cases, the person does not survive. When that 
happens, I am the person who must walk down the long hallway, 
sit down with the family, and tell them that their loved one 
didn't make it. This is a very tough job. It is still as hard 
as it was the first time. I would like not to have to do it so 
often.
    Eighteen months ago, the 48 year old wife of one of my 
colleagues developed a nagging dry cough. Debbie was a fit, 
non-smoking, no risk factor person. Her workup revealed lung 
cancer. As 90 to 95 percent of lung cancer victims do, she died 
after a lot of suffering. It was my sad duty to prescribe 
morphine tablets when she ran out of them in her last week of 
life. Her funeral was attended by hundreds of mourners. I was 
one of them. She left behind a devastated family, including one 
12 year old child with special needs, who still really needs 
his mother. Air pollution from living in the diesel death zone 
was the most likely cause of her death.
    The point here is that we are not just talking about 
numbers. Real people are sick and dying. Physicians are seeing 
increasing numbers of cases like these where the only risk 
factor seems to be living in this diesel death zone, this area 
of high diesel pollution, and we have these areas all over this 
Country.
    In studying this, I came to realize that if I were able to 
reduce the air pollution by a few micrograms per cubic meter, I 
would save more lives than I ever did working in the ER. 
Enactment of this bill will prevent many needless premature 
deaths and the enormous related costs in America. It is wrong 
to allow the needless deaths of Americans so corporations, 
often foreign-owned, can make bigger profits.
    Thank you for your kind attention to my testimony.
    [The prepared statement of Dr. Miller follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


          Responses by John G. Miller to Additional Question 
                           from Senator Boxer

    Question 1. Based on your experience with, air pollution, 
health impacts, what do you believe are the most significant 
adverse health effects from air emissions from marine vessels? 
Please describe both the types of effects that you have 
observed, and the effects discussed in the medical and 
scientific literature that are of the greatest concern to you?
    Response. I believe that the most significant impacts from 
ship emissions are those that are happening to our children for 
they are America's future. Childhood asthma is a huge and 
growing burden on our society. It is now associated at the 
level of ``causation'', according to many researchers, with the 
sort of air pollution produced by marine vessel emissions. The 
finding by researchers at USC that air pollution is causing 
stunted lung growth or loss of growth in children's lung 
function that is non-recoverable seems particularly ominous. As 
these children progress into adult life they face a future 
clouded by likely premature death due to the damage they 
sustained.
    The UCLA Medical Center at Los Angeles County Harbor 
General Hospital completed a Wilmington Children's Asthma Study 
in 2007, but the report has not been released yet. They have 
disclosed that their results showed that 24 percent of all 
children in Wilmington, California have asthma. Wilmington, 
like my hometown of San Pedro, is immediately adjacent to the 
Port.
    We do not have the right to allow our children to be 
poisoned so various corporations can make fatter profits. I am 
concerned that in the case of ship emissions we are doing 
exactly that.
    The non-cancer adverse health effects such as deaths from 
heart attacks, strokest chronic obstructive pulmonary diseaset 
accelerated atherosclerosist and elevated ``all cause 
mortalityU have been estimated to be at least 10 times greater 
than the well known cancer effects. Thus, numerically they are 
of great concern to me.
    Lung cancer remains almost uniformly (90-95 percent!) 
fatal. Of course it remains a major concern.
    The overall magnitude of the effect of breathing the air in 
an area with levels as high as we have in most of America's 
major port regions has been compared to the effect of passive 
smoking by some experts in this field. As a physician I find 
this very alarming.
    Unlike the situation with asbestos and mesothelioma, there 
is no single ``signature diseaseUassociated with marine vessel 
emissions. This may make it easier for the polluters to try to 
say that one can't blame a personts illness on ship emissions. 
However we know that in the overall picture many cases of the 
illnesses mentioned above are being caused by ship emissions. 
The epidemiologists have made a good case that ship emissions 
are causing a significant fraction of the death and destruction 
of lives that I have seen in my 3 decades of practice as an 
Emergency Physician in the South Coast Air Basin.
    Every doctor is concerned when he or she sees preventable 
death or disability. The air pollution impacts mentioned above 
are preventable. Statistically, ship emissions are causing part 
of this problem. I applaud your Committee's efforts to reduce 
this avoidable burden to our society.

    Question 2. You mentioned in your written testimony a few 
patients that you believe were likely to have been affected by 
air pollution. Please describe additional specific instances of 
health effects that were likely caused by air pollution that 
you or your colleagues at local hospitals have observed in 
patients from areas where marine vessel air pollution is a 
problem.
    It would be difficult to say with 100 percent certainty 
that any individual case of the myriad illnesses that have been 
associated with diesel exhaust air pollution is due 
specifically to ship exhaust. The tobacco industry hid behind 
this lack of absolute certainty in individual cases for 
decades. However, given that ship exhaust is a major 
contributor to the total regional air pollution on all U.S. 
coasts, marine vessel emissions are major contributors to the 
total morbidity and mortality this air pollution brings to 
American citizens.
    That being said, I will describe some cases I am aware of 
in which air emissions from marine vessels were the most likely 
culprit or at least a possible major contributing factor.
    We know from the epidemiological literature that persons 
occupationally exposed have about 150 percent higher risk for 
the diseases associated with air pollution than the general 
population in the same area. Thus some cases from the Ports:

    --A 40-year-old ILWU member (longshoreman) who died of ``a 
massive asthma attack'' according to the Union's benefit 
coordinator. He had worked on the docks since he was in his 
20's
    --``R'', a friend of mine who was a 50-year-old nonsmoking 
longshoreman who suffered a myocardial infarction.
    --``P'' A nonsmoker who grew up in San Pedro, worked for 
the Port and recently retired from that job, diagnosed at age 
60 with chronic obstructive pulmonary disease.
    --``V'' a member of the pile drivers union, and one of my 
neighbors who died of sudden cardiac arrest in his early 50's.
    --``B'' a Port crane operator who could no longer work 
because of the asthma and repeated precancerous polyps he keeps 
getting on his vocal cords. (Crane operators sit in a cab at 
about smokestack height as they perform the highly skilled 
mechanical ballet that gets the 35-ton boxes off or on the 
ships.) His doctors have told him he can no longer work at his 
high daylight skill job, indeed they told him he shouldn't work 
in or near the Port.
    --Recently one of the cancer surgeons at our local hospital 
saw 3 cases of young men (30's to 40's) with unusual 
malignancies. All were dockworkers referred via the ILWU. He 
thought this was ``strange''.

    As I was writing this, I found some notes my wife wrote 
last Fall. She is a Registered Nurse who works as one of the 
hospital Nursing Supervisors at the local hospital (Little 
Company of Mary San Pedro Hospital), a small community hospital 
located near the Port of LA. As a nursing supervisor she has to 
stay on top of what is going on throughout the hospital and 
knows most of the personnel who work there. One day she was 
suddenly struck by how many staff members were sick or had 
died. She decided to list the ones she could remember.
    From her notes: (using person's sex and job title only to 
avoid HIPPA violations)
    Female CCT--GYN.Cancer
    Female RN--Thoracic Cancer
    Female RN--Breast Cancer
    Female RN--Lung Cancer
    Female. RN--Cancer
    Female RN--Sudden Death, cause unknown
    Female MD--Cancer, expired
    Female RN--Cancer, expired
    Female RN--Cancer
    Female secretary, Multiple. Sclerosis
    Female. RN--suicide
    Female RN--Cardiomyopathy, expired
    Female RN--immune response disorder
    Female. US-Lung Cancer, expired
    Female RN--Breast Cancer, expired
    Female. PBX-Systemic Lupus Erythematosis, expired
    Female US--Sudden Death unexplained
    Female LVN--Ovarian Cancer, expired Male MD--Cardiac 
Arrest-penn. Disabled
    Female., CCT-Brain Cancer-expired
    Male priest--Lymphoma--Cancer expired
    Female. RN,--Thyroid Cancer
    Female manager,--Pancreatic Cancer
    Female RN Lung cancer-expired
    Female RN--Breast Cancer
    Female--Brain tumor
    NEIGHBORS we know in the community surrounding the Port of 
LA:

    My friend G, a fit, nonsmoking Brit who has developed 
severe asthma since he moved here.
    K.L. neighbor--Cancer--expired
    K.D. husband--Cancer-expired
    P.T.husbandtlongshoreman-LungCancer
    A.M. husband--Cancer--expired
    L.M. neighbor--Cancer--expired
    S.E. neighbor--Breast cancer-expired
    M.M. neighbor--Brain Tumor--expired
    M. from MOW--Breast Cancer
    M.T. son-Cancer
    C.O. son-Leukemia
    T.O. neighbor--melanoma
    J.M. friend at ILWU--throat Cancer

    Are all these folks victims of our local air pollution? I 
doubt it but I believe some are. They all lived and worked here 
in the Diesel Death Zone. For example some of the many 
carcinogenic compounds that are found in diesel exhaust/ship 
emissions have been implicated in breast cancer.
    In the nearby town of Wilmington mentioned in my response 
to question I.Ot a health survey was conducted by Communities 
for a Safe Environment (CFASE) of which I am proud to be a 
Board member. Three hundred 20 nine residents living within 5 
blocks of the waterfront were interviewed in a door to door 
face to face survey using an extensive standardized list of 
health and demographic questions. 26 percent reported 
respiratory diseases including 3 lung cancers. The results of 
this grassroots effort await further analysis.
    Once again the simple point is that real people friends 
neighbors are getting sick and dying.
    Whenever I see a person who have lived in a high air 
pollution area such as ours who develop a heart attack, stroke, 
or sudden death respiratory arrest or chronic obstructive 
pulmonary disease I think they may be a victim of air 
pollution. I know that a fraction of all the cases I see are 
undoubtedly the effects of air pollution. The fact that we are 
not yet absolutely able to say which death was due to air 
pollution does not relieve us of the responsibility to reduce 
the causes of these aggregate deaths.
    When I hear about a child in one of the local high schools 
with leukemi? I list air pollution as one likely cause or 
contributing factor. I have seen the high school students doing 
a car wash to raise money for a classmate ill with leukemiat 
one of the myriad illnesses associated with ship emission type 
air pollution. My heart goes out to them.
    Indeed many things are wrong with this picture.
    Thank you for your attention to one physician's perspective 
on this problem.

    Senator Boxer. Thank you very much, Doctor.
    Our next speaker is Richard Kassel, Senior Attorney, 
Director, Clean Fuels and Vehicles Project, Natural Resources 
Defense Council.

 STATEMENT OF RICHARD KASSEL, SENIOR ATTORNEY, DIRECTOR, CLEAN 
 FUELS AND VEHICLES PROJECT, NATURAL RESOURCES DEFENSE COUNCIL

    Mr. Kassel. Thank you, Madam Chairman, members of the 
Committee. My name is Richard Kassel. I am here representing 
the 1.2 million members and online activists of the Natural 
Resources Defense Council, NRDC, a national non-profit 
environmental organization.
    I thank you for the opportunity to testify today in support 
of S. 1499. Frankly, I think that Jonah and Dr. Miller have 
already said just about everything that needs to be said. I 
hope I can add something meaningful to their incredibly strong 
words.
    You know, all of us can agree. We all rely on ocean-going 
ships to bring us what we want, what we need, and when and 
where we want it. But as Jonah has told us, as Dr. Miller has 
told us, these ships also bring us staggering levels of 
pollution that trigger asthma attacks, bronchitis, cancer, 
emphysema and even premature death.
    Ocean-going ships really are the last bastion of dirty 
diesels in our Country. If we were to look at a map of the 
health impacts from these ships, and I understand that you may 
have one. It is in my written testimony and everybody can see 
it there. You would see that it covers not just the obvious big 
ports that we hear about every day, but it covers areas that 
include more than half the people who live in the Country. It 
would dovetail nicely, unfortunately, with a map of the most 
serious ozone and particulate matter non-attainment areas of 
the Country. All of these places overlap, and of course they 
overlap because the problem is real and ships are a big part of 
it.
    Senator Boxer. Let me interrupt without taking time away.
    Mr. Kassel. Please.
    Senator Boxer. Freeze his time for a second.
    I just want to make sure people understand this. At least 
2,000 to 5,000 premature deaths per year in the continental 
U.S. are caused by particulate pollution from ocean-going 
vessels.
    Mr. Kassel. That is right.
    Senator Boxer. This is a fact. And if we do nothing, shame 
on us. We are complicit in this.
    OK. Continue.
    Mr. Kassel. Yes, thank you.
    I absolutely agree. And of course, if no action is taken, 
the problem will get worse. Business as usual projections 
suggest that global shipping will roughly double by 2020 and 
roughly triple by 2030. From an environmental and a public 
health perspective, the emissions from that business as usual 
are unacceptable.
    But luckily, we have learned over the last decade that 
diesel pollution is a solvable problem. As Mr. Wood-Thomas has 
noted, EPA has gone through several rulemakings that have shown 
that if you reduce the sulfur levels and you bring in 
technology at the end of the tailpipe that reduces the 
particulates and the nitrogen oxides, you can reduce 90 percent 
or more of these harmful emissions. And of course, your bill 
will adapt that model to these ocean-going vessels.
    Consider a few comparisons. The Metro bus outside operates 
on 15 parts per million sulfur fuel. The Amtrak that I will 
take to get home to New York tonight will run on 500 parts per 
million sulfur. But the ship that carried the coffee that I had 
this morning runs on average on 27,000 parts per million and 
has no meaningful emission controls whatsoever.
    So passing S. 1499 is critical for several reasons. First, 
it goes to the heart of the problem. A recent study 
commissioned by the Clean Air Task Force showed that reducing 
sulfur to the levels in your bill within 200 nautical miles of 
the North American coast would reduce shipping-related 
premature mortalities by more than 50 percent by 2012. Doing so 
would result in health benefits to society that could be valued 
at roughly $250 million per year, which is higher by order of 
magnitude of any implementation cost estimates that have been 
presented.
    Further, sticking to 200 miles makes sense because that is 
where most of the impacts are. Recently, the International 
Council on Clean Transportation reported that roughly three-
quarters of all ship emissions are happening within 400 
kilometers, or roughly 250 miles, of the coasts. It was a 
global study.
    So what that says is that if you want to tackle the 
problem, as they are doing at the IMO level, and you were to 
consider a very, very strict regime in the coastal zones, or a 
weaker but global regime, you would do more good for public 
health with the approach that you are taking in this bill, and 
that EPA is taking at IMO. But of course, what is at IMO is a 
selection of options, which include the less effective 
approach.
    So your bill is important not just for what it will do, but 
also for the leverage and the message it sends to IMO. We think 
that passing your bill adds to the likelihood that the best 
outcome happens at the international level. We were just as 
happy as anybody else about last week's news. It is promising. 
But do put it in perspective, what happened last week was a 
strong breakthrough on NO<INF>x</INF> and a suite of options on 
sulfur out of a subcommittee.
    To analogize to this building, we all know that if a 
subcommittee puts out a bill, that is a long way from a 
President's signature. That is where we are in the process. And 
yes, historically the IMO has tended to rubber stamp as it goes 
through the process, but historically the IMO takes the lowest 
common denominator approach. The committee and the full IMO has 
never had this situation before it where it is being asked to 
actually push technology the way we do in our EPA rules all the 
time.
    Senator Boxer. Mr. Kassel, just if you could finish up.
    Mr. Kassel. I am happy to wrap up and to say that we 
support your bill strongly.
    Senator Boxer. Well, I like that.
    Mr. Kassel. I want to thank you for bringing it, and I hope 
that we can work together toward its passage. And thank you for 
the opportunity to testify.
    [The prepared statement of Mr. Kassel follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


          Responses by Richard Kassel to Additional Questions 
                           form Senator Boxer

    Question 1. Would moving forward toward enactment of S. 
1499 assist the U.S. in its current negotiations before the 
IMO?
    Response. Yes.
    NRDC believes that S. 1499 adds significant leverage and 
momentum to the growing calls for an international resolution 
to the global problem of ship pollution. In February, we were 
pleased to read about the progress on efforts to reduce sulfur 
levels at the then most recent International Maritime 
Organization (IMO) meeting. In sum, the IMO subcommittee on 
bulk liquids and gases announced that it would present three 
proposals for consideration by the IMO's Marine Environment 
Protection Committee (MEPC). Of the three,\1\ one foresees a 
1000 ppm sulfur cap in the Sox Emission Control Areas (SECAs) 
that already exist in Europe or that may be added later,\2\ 
starting in 2012.
---------------------------------------------------------------------------
    \1\One of the three proposals that will be reviewed by the IMO MEPC 
in April foresees a sulfur cap similar to S. 1499. Another calls for a 
5000 ppm cap worldwide, in 2015, and a third calls for a global cap of 
30,000 ppm (more than today's average global sulfur level in ocean-
going shipping vessels, which is roughly 27,000 ppm) and more localized 
sulfur caps in the 1000-5000 ppm range.
    \2\Currently, SECAs are in place in the Baltic Sea, the North Sea, 
and the English Channel. SECAs are being considered for the west coast 
of the U.S. and other locations around the world. In addition, 
California State law requires 1000 ppm sulfur fuel to be used in its 
coastal waters and ports by 2010, and European law requires this fuel 
to be used in European ports and inland waterways by 2010.
---------------------------------------------------------------------------
    Another envisions a similar sulfur cap for ``micro-emission 
control areas'' in 2015. The bottom line: 1000 ppm is clearly 
feasible, especially in the dense shipping corridors off the 
U.S. and European coasts.
    The IMO news may include some promising components, but 
should not be mistaken for the promise of actual action. Here's 
why: many steps remain between an IMO Subcommittee proposal and 
a final IMO agreement that has been ratified by its member 
countries. First, the IMO subcommittee on bulk liquids and 
gases will present its three new options to the IMO's marine 
environment protection committee (MEPC) in April. Then, if an 
acceptable option (of the three) passes the MEPC, it would go 
to the fulliMO for consideration in October. Then, assuming 
that one of these three proposals is actually approved by the 
IMO in October, the IMO's member countries would have to ratify 
the IMO's action before it is implemented globally. In other 
words, there has been some progress, but implementing a global 
agreement still seems to be a long way off.
    Moreover, the IMO has a long history of adopting final 
standards that merely reflect the lowest common denominator of 
the international community. Through that lens, it seems as 
likely that the option that includes the 30,000 ppm global cap 
will be adopted as that our preferred option will be chosen, 
unless the substantial threat of national action (Whether via 
S. 1499, by European nations, or by other key government 
stakeholders) alters the pattern of the IMO's past decisions. 
In sum, notwithstanding the positive efforts of the U.S. EPA 
and others to convince the IMO to adopt stronger global 
standards for marine fuels, NRDC believes strongly that 
legislation like S. 1499 adds to the leverage and political 
pressure that is necessary to eventually adopt a global 
standard.
    It is worth noting that a coastal sulfur reduction brings 
most of the benefits of reduced sulfur levels to the 
communities that are most affected by ship pollution. From the 
perspective of reducing the public health impacts of port 
communities, lowering sulfur standards within a coastal zone of 
200 miles makes a lot of sense. Recently, the International 
Council on Clean Transportation, an organization that 
represents leading regUlators and experts around the world, 
reported that 70-80 percent of all ship emissions occur within 
400 kilometers (248 miles of land).\3\ So, in fact, the sulfur 
limitations in S. 1499 will not only make sense to coastal 
communities that are home to the nation's ports, but would 
effectively target roughly three-quarters of the overall ship 
pollution problem if applied globally. Plus, many of the 
communities that neighbor the nation's ports are low-income 
communities and/or communities of color, and already bear a 
disproportionate impact of the truck, rail, and terminal 
emissions at these ports. Reducing ship emissions would bring a 
well-deserved respite to these communities.
---------------------------------------------------------------------------
    \3\ International Council on Clean Transportation, Air Pollution 
and Greenhouse Gas Emissions from Ocean-Going Ships, Executive Summary, 
p. 5 (March 2007).
---------------------------------------------------------------------------
    Third, reducing sulfur opens the door to adding emission 
control technologies that can reduce NO<INF>x</INF> and other 
pollutants further. This model, first used on a large scale by 
New York City's transit buses (where diesel transit buses are 
now 97 percent cleaner than they were in the mid-1990's) and 
adapted by EPA for use in its recent locomotive and marine 
diesel rule, would be feasible for the ocean-going vessels 
also. At 1000 ppm, selective catalytic reduction (SCR), a time-
tested pollution-control technology in used in stationary and 
mobile applications around the world, would be feasible.
    The IMO information supports this notion that SCR or other 
technologies could provide dramatic emission reductions once 
1000 ppm sulfur levels were in place. In one of the IMO 
scenarios, NO<INF>x</INF> emissions would be cut by as much as 
80 percent by 2016 in the sulfur control areas that were capped 
at 1000 ppm. In other words, if S. 1499 were adopted, similar 
NO<INF>x</INF> reductions could be considered for ocean-going 
vessels serving American ports. Consequently, NRDC strongly 
supports the requirement in S. 1499 that directs EPA to 
promulgate new emission standards for newly manufactured and 
in-use main and auxiliary engines in ocean.going vessels that 
enter or leave a port or offshore terminal in the U.S.
    In sum, passing S. 1499 would provide significant leverage 
on the IMO negotiations, as well as significant health and 
environmental benefits to communities near our ports.

    Question 2. Some have argued that reducing the levels of 
air pollutants like PM, SOX, and NO<INF>x</INF> emitted from 
large marine vessels would have the effect of increasing 
overall global greenhouse gas emissions, while other experts 
have concluded that global warming would actually be reduced 
when these pollutants are addressed. Would you please provide 
your views on this issue.
    Response. Pollution from large marine vessels contributes 
significantly to global greenhouse gas emissions, in addition 
to air pollution and public health impacts in the United 
States.\4\ Ocean-going vessels account for an estimated 2.7-5 
percent of the world's greenhouse gases, roughly equivalent to 
the carbon dioxide emissions of all U.S. cars and trucks, 
combined. According to the Intergovernmental Panel on Climate 
Change (IPCC), these emissions are estimated to be between 600-
900 million metric tons/year.\5\ Only six countries in the 
world emit more carbon dioxide than the world's fleet of large 
marine vessels.\6\ Moreover, emissions from these vessels are 
likely to grow by 75 percent over the next two decades and may 
double by 2050.
---------------------------------------------------------------------------
    \4\ In responding to this question, NRDC is deeply indebted to our 
colleagues at Oceana, Friends of the Earth, the Center for Biological 
Diversity, and Earth justice. Their expert analysis of this issue, 
discussed in detail in their October 3, 2007 petition October 2007 
Petition'') to the EPA for a Clean Air Act rulemaking 10 reduce 
emissions from ocean-going vessels, was invaluable to NRDC's 
preparation of our response 10 Senator Boxer on this question.
    \5\ IPCC, Climate Change 2007, The Physical Science Basis, 
Contribution of Working Group I to the Fourth Assessment Report of the 
Intergovernmental Panel on Climate Change (``IPCC Summary for 
Policymakers''), Feb. 2007, at 2.
    \6\ United Nations, Department of Economic and Social Affairs, 
Carbon Dioxide Emissions, Thousands o( Metric Tons, available at hltp:/
Imdgs.un.orgJunsd/mdg/SenesDetail.aspx?srid=749 (August 1, 2007).
---------------------------------------------------------------------------
    Ships are also a major source of nitrogen oxide emissions. 
These emissions are a principal component of ground-level 
ozone, or smog. But they are also a greenhouse gas that acts 
similarly to carbon dioxide, by trapping heat in the atmosphere 
for decades at a time. Ships contribute as much as 30 percent 
of global NO<INF>x</INF> emissions, an estimated 27.8 million 
tons/year. Without significant policy intervention, the 
contribution of ships to global NO<INF>x</INF> emissions will 
grow substantially in coming decades, keeping pace with the 
growth in overall shipping rates and other aggregate emissions 
from ships. Thus, marine NO<INF>x</INF> emissions are expected 
to nearly double by 2050.\7\
---------------------------------------------------------------------------
    \7\ October 2007 Petition, at 11.
---------------------------------------------------------------------------
    Ships are also a major source of ``black carbon,'' also 
known as soot. These microscopic particles result from 
incomplete fuel combustion-and have well-known health impacts, 
as well as global warming impacts. These impacts include, among 
others, increased asthma emergencies, bronchitis, cancer, 
emphysema, heart attacks and premature deaths-with no known 
threshold of exposure required to trigger these impacts.
    At sea, black carbon is a potent global warming pollutant. 
As soot particles absorb heat from sunlight, they warm the air, 
water, and ice nearby. Consequently, black carbon is 
increasingly viewed as a major contributor to Arctic ice 
melting.\8\ And, shipping is, of course, the source of much of 
the black carbon released over the oceans.
---------------------------------------------------------------------------
    \8\ Id. At 13.
---------------------------------------------------------------------------
    Switching to lower-sulfur fuels would reduce each of these 
global warming pollutants, and enable the use of emissions 
control technologies that could lower emissions even further-
technologies that are impossible to use with the current bunker 
fuel. For example, NO<INF>x</INF>-reducing selective catalytic 
reduction (SCR) systems can effectively reduce NO<INF>x</INF> 
by 80 percent or more, assuming that sulfur levels are no more 
than 1,000 parts-per-million (ppm). SWitching from heavy fuel 
oil to marine diesel oil would reduce C02 by almost 3 percent 
by 2020, as well as reduce NO<INF>x</INF> by nearly 5 percent 
and particulate soot by 63 percent.\9\ Beyond the global 
warming benefits, this fuel switch would reduce the public 
health impacts of today's ships that operate on bunker or 
residual fuel.
---------------------------------------------------------------------------
    \9\ Winebrake and Corbett, Technical Memorandum: Total Fuel Cycle 
Analysis for Container Ships: A Comparison of Residual Oil, Marine Gas 
Oil and Marine Diesel Oil (2007) at 6.
---------------------------------------------------------------------------
    Admittedly, the switch to low sulfur fuels could increase 
refinery C02 emissions slightly, e.g., by 2-5 percent. However, 
mitigating these emissions would be more easily addressed at a 
stationary source location than onboard a ship. And, to the 
extent marine-based mitigation was desired, they could be 
easily offset by time-tested, successful marine-based 
strategies, such as reducing ship speeds near ports, as is done 
at the Ports of Los Angeles and Long Beach.
    Real-world experience tells the best story, as always. 
Maersk Line ships voluntarily switch to lower-sulfur fuels 
within 24 nautical miles of California ports. This switch has 
reduced overall emissions by approximately 400 tons annually, 
including an 80 percent reduction in particulate soot emissions 
and a 17 percent reduction in NO<INF>x</INF> emissions.\10\
---------------------------------------------------------------------------
    \10\ Sustainableshipping.com, July 10, 2007, available at http /
lwww.suslainableshipping.com/news/2007/07/68418
---------------------------------------------------------------------------
    In sum, NRDC believes that the net global warming and 
health benefits of reduced sulfur levels in the fuel that 
powers the global shipping industry would far outweigh the 
minimal increases in C02 emissions at oil refineries that 
result from the enhanced refining required to produce lower-
sulfur fuels.

    Question 3. Are emissions from marine vessels arriving in 
ports in Louisiana likely to affect the health of citizens of 
Louisiana or other states, and if so, how?

    Response. Every year, thousands of Louisiana residents are 
harmed by diesel soot pollution,
    According to the Clean Air Task Force, there were 324 
premature deaths, 339 non-fatal heart attacks, 7,131 asthma 
attacks, 188 cases of chronic bronchitis, 40,740 lost work 
days, and other health impacts in Louisiana that were 
attributable to diesel soot pollution in 1999. Furthermore, 
there were 468 cancers per million person in Louisiana, thanks 
to diesel soot pollution, in 1999, compared to only a risk of 
28 cancers per million due to all other inhaled toxic 
chemicals.\11\ Clearly, diesel pollution is a serious problem 
for the Louisiana's citizens, residents and visitors.
---------------------------------------------------------------------------
    \11\ See Clean Air Task Force, Diesel & Health in America, 
available at http://www.catf.uslprojectsldieselldieselheathfState 
php?slte-O&s-22
---------------------------------------------------------------------------
    Shipping plays a major role in this pollution and its 
resultant health impacts. The aggregate emissions from the 
ships operating in the Lower Mississippi are roughly equivalent 
to the emissions of almost 600,000 cars, trucks and urban 
buses, according to the Environmental Defense Fund.\12\
---------------------------------------------------------------------------
    \12\ EDF, Fact Sheet: ``Air Quality and Health: Smog Alert How 
Commercial Shipping is Polluting Our Air,'' available at 
htlp:ffwww.environmenlaldefense.orgfgo/cmv
---------------------------------------------------------------------------
    Ocean-going marine vessels are an especially significant 
component of this pollution. These vessels contribute 14 
percent of the NO<INF>x</INF> emissions in New Orleans, as well 
as 24 percent of the fine particulate soot (PM<INF>2.5</INF>) 
and 59 percent of the sulfur oxides. Incredibly, these vessels 
contribute a larger share of the regional NO<INF>x</INF> and 
PM<INF>2.5</INF> emissions than more publicized ports such as 
Los Angeles and Long Beach, California (5 percent of the 
NO<INF>x</INF> and 10 percent of the PM<INF>2.5</INF>), the 
port of New York and New Jersey (4 percent of the 
NO<INF>x</INF> and 10 percent of the PM<INF>2.5</INF>), and 
Galveston, Texas (5 percent of the NO<INF>x</INF> and 12 
percent of the PM<INF>2.5</INF>).\13\
---------------------------------------------------------------------------
    \13\ International Council on Clean Transportation, Overview of 
Current and Proposed Policies in the United States (2007).
---------------------------------------------------------------------------
    In sum, people who breathe air in Louisiana are no 
different than people who breathe air in California and other 
heavily polluted states of our county: they breathe huge 
amounts of diesel pollution that harms their hearts, lungs, and 
health-and much of this pollution comes from shipping 
activities.


                               conclusion


    I hope that these responses are helpful to you and the 
Committee. Because I am currently in China, I am transmitting 
this letter electronically. If you wish to discuss them in 
greater detail, please do not hesitate to contact me.

    Senator Boxer. Thank you very much.
    And now we are pleased to turn to Ken Wells, President of 
the Offshore Marine Services Association.

          STATEMENT OF KEN WELLS, PRESIDENT, OFFSHORE 
                  MARINE SERVICES ASSOCIATION

    Mr. Wells. Madam Chair, members of the Committee, good 
morning. My name is Ken Wells. I am President of the Offshore 
Marine Services Association. Our association represents the 
owners and operators of U.S.-flag vessels that work to support 
the offshore oil and gas industry. So our work boats carry all 
of the components, the equipment, and many of the industrial 
workers that make it possible for our Country to access its 
offshore energy resources.
    We appreciate the opportunity to testify today on the 
Marine Vessel Emissions Reduction Act of 2007. Madam Chair, we 
share your goal of reducing air emissions from all sources in 
the United States.
    We do have a unique perspective on this bill and this 
issue. We don't represent companies that run large ocean-going 
ships. The vessels in our fleet are smaller than ships. They 
run on medium and high speed diesel engines. So our industry is 
already covered by the current EPA rulemaking process reducing 
emissions from category one and two diesel engines.
    We already use low-sulfur fuel. We are already trying to 
come into compliance for engines and after-treatment in the 
rulemaking. Frankly, we don't know if we are going to make it 
by the deadline. We don't know if the engines with the new 
technology can be built and installed in time, and we don't 
know if the after-treatment equipment will fit within our 
smaller, more compact engine rooms. I can only tell you that we 
are trying, and we intend to meet the deadline.
    Looking specifically at the bill, frankly we agree with the 
key purpose, to require foreign vessels to meet the same 
requirements as U.S. vessels. We are already on record calling 
for that in our sector. But within the caveat that unlike most 
of the ships you may be more familiar with, foreign work boats 
in the offshore industry don't just come to a U.S. port, drop 
their cargo, and leave again. They come to offshore projects. 
They stay for months at a time.
    They compete with U.S. boats for construction work, seismic 
testing and dive operations. And yet we face difficult clean 
air mandates, and they are currently exempt. It is a little 
like forcing Ford to meet auto emissions standards for cars 
running on our highways, and then giving Toyota a free pass.
    We would like for them to play by the rules. However, as we 
look at the larger issue, we have to recognize that it is a 
double-edged sword for us. When our vessels try to go to work 
overseas with all that expensive mandated equipment, it may 
make them unable to compete with the foreign boats that don't 
ever come to the U.S. We have to look at how we would deal with 
that. The U.S. owners of these vessels, if they can't get 
relief for the vessels at home, and then they can't compete 
overseas, they may be forced to re-flag those vessels, leave 
the U.S., and simply not work in our market.
    Enough about our industry. We have to look at the Country's 
international competitiveness. If we as a Country move 
unilaterally to create a requirement that doesn't exist 
anywhere else in the world, the ships will simply not call on 
our ports unless the rates rise so much that it would justify 
the expense. Now, different parts of the Country will feel that 
shock in different ways. In some areas, it may not be felt by 
the consumers. In others, it will.
    I am from Louisiana, where one-third of the grain is 
exported through the Mississippi River. Our grain exports can 
rise or fall based on slight fluctuations in currency, fuel 
costs, or a good soaking rain on the plains of Argentina. Cargo 
like steel and coal also moves or doesn't move through our 
ports based on extremely narrow margins.
    So our State's maritime industry, and it is a large part of 
our State's industry, would need for you to consider the impact 
of this bill on our local economy before you took action. We do 
feel that there is a better option. It has been talked about 
today, an option that solves your needs, gives our industry a 
chance to compete, and improves the air quality worldwide, 
which should be our goal.
    Rather than forcing through this narrow bill, we would urge 
you to push hard for the International Maritime Organization to 
set standards for all of the world's vessels, push the U.S. 
delegation to take the leading role in achieving the goal, and 
give them the legislation they need to accomplish that. The 
U.S. should not, in our opinion, go this one alone, especially 
when a global solution appears to be so close at hand.
    We thank you for giving us the opportunity today.
    [The prepared statement of Mr. Wells follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


            Responses by Ken Wells to Additional Questions 
                           from Senator Boxer

    Question 1. Data from a study of mortality resulting from 
marine vessel emissions, Corbett and Winebrake 2007, indicate 
that there are between 100 and 1SO premature deaths in 
Louisiana caused by pollution emitted from marine vessels each 
year. If enacted, S. 1499 would substantially reduce the 
emissions causing these deaths by requiring international 
shippers to use low sulfur fuel in proximity to U.S. ports. Do 
you agree that these effects should be addressed?
    Response. Operators ofU:S. flag offshore support vessels 
are addressing vessel engine emissions by working to implement 
recent changes to Environmental Protection Agency regulations. 
These include switching to low sulfur fuel and working with 
engine manufacturers to develop improvements in the design of 
engines used on offshore vessels. Therefore we hope that the 
offshore sector will be seen as living up to its 
responsibilities as a U.S. citizen that is working diligently 
to reduce emission from its vessels.
    On a related point, the bill may not address emissions from 
many of the foreign vessels that come into U.S. waters for 
offshore oil and gas work. These large construction vessels 
come into the exclusive economic zone (EEl) and stay for 
several months at a time, but may not actually enter a U.S. 
port, thus triggering the emission requirements contained in 
the bill. The legislation would need to be changed to include 
vessels working on the EEl if it is to include those vessels.
    We do need to point out that the question asked here may 
not be entirely correct. The Corbett and Winebrake study does 
not make the statement or draw the conclusion that vessel 
emissions cause 100 to 150 deaths in Louisiana. The focus of 
the study is global emissions, not localized emissions. 
Attempts to extrapolate localized data from this sort of study 
risks being inaccurate. The conclusions may also conflict with 
other statistical studies. For example, the study predicts 
mortality in statistical probabilistic terms, yet the actual 
total rate of mortality in Louisiana from all respiratory 
disease from all causes is in reality lower than the national 
average, which includes both coastal states and states that are 
well outside the reach of vessel emissions. That is not to 
question the major theme and finding of the study, but rather 
to point out the dangers of focusing on minute slices of data 
taken from probabilistic analysis to derive conclusions about 
limited geographic areas.
    The study also does not take into account the tradeoffs 
that could result from unilateral action. Given the much higher 
emissions per ton mile from other modes of transportation, this 
is a real consideration. Under one very likely scenario, higher 
shipping costs could keep some low margin cargoes such as grain 
from moving down the Mississippi River for export, resulting in 
that cargo shifting to trucks and trains for domestic 
transportation. Under a second scenario, cargo could be 
unloaded at Mexican ports and trucked into the U.S. through the 
California and Texas corridors. Either scenario would represent 
a net increase in air emissions, not to mention a statistically 
significant increase in traffic injuries.
    Most importantly, this focus on one region detracts from 
the larger point of the study that vessel emissions is a 
worldwide issue and one that requires an international 
approach. That means recognizing international economics and 
trade relationships, leveraging international technological 
solutions and negotiating on the international stage.

    Question 2. Do you believe that in light of the substantial 
evidence that diesel emissions harm human health, that we 
should wait indefinitely for the IMO process to be completed 
and for IMO to adopi stringent standards?
    Response. On behalf of our sector of the maritime industry, 
we again emphasize that vessels belonging to OMSA members are 
working to meet EPA regulations governing emissions. The 
question does not apply to the offshore oil and gas sector, 
with the exception of foreign offshore vessels that may not be 
covered by either EPA regulations or the Senate bill, as 
mentioned in question 1.
    Further, the IMO process is very far along. In fact, 
recommendations were completed last week and await action in 
the fall. As was seen in the implementation of the 
International Ship and Port Security Code with strong and 
vigorous leadership from the
    U.S. IMO can make significant changes in a single year. The 
United States should take an active and aggressive role in 
leading the IMO to developing appropriate international 
standards. The referenced study from Corbett and Winebrake 
indicate the international effect of vessel emissions is 
significant in Europe and Asia. This may present the 
opportunity for the U.S. to positively impact international 
standards in a fashion that will benefit all of the world's 
citizens.

    Question 3. Are you aware that as of the date of the 
hearing the IMO negotiations included no proposals to require 
installation of NO<INF>x</INF> pollution control equipment on 
existing large marine engines? How can we be assured that 
pollution and health effects of such pollution will be reduced?
    Response. The Congress should request that the United 
States expand the scope of the treaty negotiations to include 
NO<INF>x</INF> pollution control equipment on large marine 
engines. The installation of NO<INF>x</INF> pollution control 
equipment will involve substantial research and development by 
international engine manufacturers, which will have to comply 
with international standards as will be estimated by the IMO 
treaty. This will require considerable cost to the maritime 
industry to transition and retrofit vessels with those engines.

    Question 4. Is it acceptable that citizens ofLouisiana, 
California, New Jersey, Texas and other states affected by 
marine vessel pollution should be forced to suffer debilitating 
illnesses such as asthma and bronchitis, and thousands of 
premature deaths due to cancer and heart disease, while the 
United States waits for the international shipping interests to 
do something about this problem?
    Response. In every instance when illness or death is caused 
by individual or commercial activity it should be incumbent 
upon government, and each of us to mitigate the effects of that 
activity, and including international shipping. However, we 
must be cognizant of broad consequences of acting unilaterally 
to the detriment of the maritime industry which provides 
economic security for millions of our citizens. Therefore, we 
again urge that the Congress allow the IMO treaty process to be 
concluded.

    Senator Boxer. Thank you so much, Mr. Wells.
    We are not so sure that my bill affects any of the ships 
you are talking about, so we are going to in the meantime hold 
off, but we will get into that in a minute. But at first blush, 
we don't think that you will be impacted, but let's wait until 
the questions, and go to Mr. Joel Chaisson, Executive Director 
of the Port of South Louisiana. We welcome you, sir.

        STATEMENT OF JOEL CHAISSON, EXECUTIVE DIRECTOR, 
                    PORT OF SOUTH LOUISIANA

    Mr. Chaisson. Thank you, Madam Chairwoman Boxer, Senator 
Vitter, other members of the Committee. Thank you for this 
opportunity to testify here today.
    It certainly is a very difficult act to follow this young 
man, with which we all sympathize.
    I am Joel Chaisson, the Executive Director of the Port of 
South Louisiana. The Port of South Louisiana is the largest 
tonnage port in the Western Hemisphere. The port occupied 54 
miles of the Lower Mississippi River and is located between the 
Port of New Orleans and the Port of Baton Rouge. Our 
jurisdiction comprises three Louisiana parishes, the parishes 
of St. Charles, St. John the Baptist, and St. James.
    Besides our port being the largest tonnage port in the 
Western Hemisphere, the port also handles 50 percent of all of 
the import and export cargo in the State of Louisiana. Within 
our port district, we have 4 major oil refineries, 12 chemical 
plants, 8 grain elevators, and numerous other industrial 
facilities. The Port of South Louisiana receives over 4,000 
deep draft vessels called in each year, as well as 55,000 barge 
movements within the port.
    The parishes surrounding the Port of South Louisiana, not 
to mention the entire State of Louisiana, are considered 
entertainment for particulate matter and NO<INF>x</INF> . The 
bill you are considering here today which seeks to address an 
air quality problem certainly is a problem and certainly I 
recognize the problem in California. It appears at this time it 
is more of a problem for California in certain areas than it is 
in South Louisiana.
    In the port, we are very concerned that without this being 
handled internationally, this legislation would place our ports 
in Louisiana, including our port, at a disadvantage cost-wise 
and could cause us to lose the market share of trade that comes 
into our ports. The Lower Mississippi River, including our 
district, is responsible for 15 to 20 percent of our Nation's 
refining of gasoline, jet fuel, diesel, heating fuel, which we 
ship through pipelines to all parts of this Country, and which 
America so desperately needs.
    Therefore, by placing the Louisiana ports at an economic 
disadvantage, this legislation will truly affect not only the 
Port of South Louisiana, but also the State of Louisiana and 
the United States of America.
    The Port of South Louisiana has been willing and continues 
to support legislation for hydrocarbons and oil and gas 
production in the Gulf of Mexico. Without the Gulf of Mexico, 
and the products its produces, the United States would find 
itself in a very difficult position. Additionally, our ports 
have many exports and imports to and from and across the world, 
including Mexico, Venezuela, the North Sea, and from Africa. A 
great deal of the imports of all of our oil comes from these 
areas abroad to be refined at the refineries in our port 
district in Louisiana.
    Therefore, the United States should not put our ports at an 
economic disadvantage to the rest of the world, and instead 
address this from an international level, not unilaterally. 
While we don't oppose cleaner air, and in fact we support 
cleaner air, we fear that this legislation would truly affect 
Louisiana and the United States without an international 
approach. Negotiations are being worked out, and hopefully they 
will solve this problem where we will all be playing on a level 
field.
    Thank you for the opportunity to testify before this 
Committee today, and I will attempt to answer any questions if 
you have any.
    [The prepared statement of Mr. Chaisson follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Boxer. Thank you very much, sir.
    And last on our panel, but certainly not least, is Joe 
Accardo, Executive Director, Ports Association of Louisiana. 
Lots of Louisianans here today. We certainly do welcome you.


              STATEMENT OF JOE ACCARDO, EXECUTIVE
            DIRECTOR, PORTS ASSOCIATION OF LOUISIANA

    Mr. Accardo. Thank you, Senator Boxer, Senator Vitter, 
Senator Lautenberg, Senator Cardin.
    I am Joe Accardo, Executive Director of the Ports 
Association of Louisiana.
    Jonah, I, too, have a grandson who has asthma and I have 
assisted in giving him breathing treatment, so I know the 
problem.
    One of the most difficult problems you have as a legislator 
is to try to balance the public health needs of our citizens 
with the commercial needs of the Country and the citizens whose 
jobs depend upon that commercial activity. The Ports 
Association of Louisiana is a non-profit trade association 
which represents the six deepwater ports of the State, working 
inland ports, and ten coastal offshore oil and gas supply 
ports. The association was formed to promote and advance 
Louisiana ports.
    As has been pointed out here by Joel Chaisson and Ken 
Wells, Louisiana is a leader in the maritime trade. Twenty 
percent of the Nation's waterborne commerce occurs in the ports 
of our State, with 485 million tons of cargo each year, with 83 
percent of that commerce occurring in the six deepwater ports 
of our State--the Ports of New Orleans, South Louisiana, Baton 
Rouge, Plaquemine, St. Bernard, and Lake Charles on the 
Calcasieu Ship Channel.
    More than 200 million tons of that cargo is transported 
annually in 6,500 ships. Twenty percent of the Nation's import 
and export of petroleum products come through our ports, and 53 
percent of the Nation's exports of grain occur at our ports. 
And as Ken Wells pointed out, sometimes a few pennies 
difference in shipping costs may shift that grain trade to 
Argentina or Canada or Australia.
    The maritime industry is an extremely important part of our 
economy. Dr. Tim Ryan of the University of New Orleans has 
found that the ports of the maritime industry provide $33 
billion of impact to our State's economy, with 23 percent of 
our gross State product, supporting 270,000 jobs in our State.
    Madam Chairman, the facts demonstrate that the ports of the 
maritime industry and the people of our State have an important 
economic stake in the legislation you are sponsoring. Maritime 
trade affects our deepwater ports and it also provides 
tremendous economic benefits to our people, but we recognize 
that it also has an impact on the air quality of the 
communities which surround our ports.
    We recognize that sometimes this air quality can be 
detrimental to the health of our citizens. But you have heard 
this statement before: the most detrimental effect you can have 
on our citizens is to have that family lose its jobs and not 
have health insurance. We caution Congress. We suggest that 
Congress should proceed cautiously.
    The emissions from ships impact our air quality. We 
understand that. In Louisiana, the five parishes which surround 
the Port of Greater Baton Rouge do not meet the ambient air 
quality standard for ozone. We recognize the earlier statement 
that 40 ports in the U.S. operate in areas that are in non-
attainment areas. If the ozone standard is further reduced by 
EPA, as has been suggested, there will be 28 parishes in our 
State which will be out of attainment and it will affect the 
four deepwater ports along the entire 250 miles of the Lower 
Mississippi River. This will make it increasingly more 
difficult to secure permits for ports to expand its maritime 
operations, as well as manufacturing and other transportation-
related operations.
    The Ports Association recognizes that some definitive 
action must be taken to clean the air around our ports. The 
members of our organization recognize that deteriorating air 
quality is a great concern on the West Coast and other parts of 
our Country and it contributes to the lower air quality in some 
parts of our Country. We support the American Association of 
Ports' position that ports should voluntarily reduce air 
emissions by retrofitting cargo-handling equipment, using 
cleaner fuels, and reducing truck idling, but however Federal 
support is needed for the voluntary port efforts.
    If S. 1499 is enacted into law, significantly increased air 
quality requirements would be imposed on the vessels utilizing 
America's ports, while our neighbors in Canada and Mexico will 
most likely not have adopted similarly restrictive 
requirements. It is our understanding that Canada, too, is 
trying to rely on the adoption of the standards that the IMO 
would ultimately agree to.
    Senator Boxer. Can you finish up, sir?
    Mr. Accardo. Yes.
    Senator Boxer. Thank you.
    Mr. Accardo. In the alternative, we recommend that Congress 
support the Administration's efforts to try to secure 
amendments to the MARPOL Treaty and to amend Annex VI so that 
way it has the same standards that you are proposing in your 
legislation. We believe that is the best way to approach this. 
We recommend that this is the best way to achieve clean air 
quality, while at the same time allying the U.S. ports and the 
ports of Louisiana to play on a level playing field. This will 
ensure that the ports of the United States are competitive with 
the ports of most of its international trading partners.
    [The prepared statement of Mr. Accardo follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


           Responses by Joe Accardo to Additional Questions 
                           from Senator Boxer

    Question 1. Data from a study of mortality resulting from 
marine vessel emissions, Corbett and Winebrake 2007, indicate 
that there are between 100 and 150 premature deaths in 
Louisiana caused by pollution emitted from marine vessel each 
year. If enacted, S1499 would substantially reduce the 
emissions causing these deaths by requiring international 
shippers to use low sulfur fuel in proximity to U. S. ports. Do 
you agree that these effects should be addressed?
    Response. The member ports of the Ports Association of 
Louisiana agree that the effects of sulfur emissions from 
marine vessels should be addressed. In my statement to the 
Committee on Environment and Public Works on February 14,2008 
our association supported the efforts of the United States to 
amend the pertinent IMO treaties to substantially encompass the 
standards for emissions as provided in S1499. We support the 
joint efforts between the United States and our trading 
partners to amend the IMO treaty to address the issue of sulfur 
emissions.

    Question 2. Do you believe that in light of the substantial 
evidence that diesel emissions harm human health, that we 
should wait indefinitely for the IMO process to be completed 
and for IMO to adopt stringent standards?
    Response. We do not believe that the United States should 
wait indefinitely for the IMO treaty to be amended. However, 
the Congress should monitor the progress of the negotiations 
and if reports of progress are forth coming, the Congress 
should allow a reasonable period for the treaty to be 
concluded.

    Question 3. Are you aware that as of the date of the 
hearing the IMO negotiations include no proposals to require 
installation of NO<INF>x</INF> pollution control equipment on 
existing large marine engines? How can we be assured that 
pollution and health effects of such pollution will be reduced?
    Response. The Congress should request that the United 
States expand the scope of the treaty negotiations to include 
NO<INF>x</INF> pollution control equipment on large marine 
engines. The installation of NO<INF>x</INF> pollution control 
equipment will involve substantial research and development by 
international engine manufacturers, which will have to comply 
with international standards as will be established by the IMO 
treaty. This will require considerable cost to the maritime 
industry to transition and retrofit vessels with those engines.

    Question 4. Is it acceptable that citizens of Louisiana, 
California, New Jersey, Texas and other states affected by 
marine vessel pollution should be forced to suffer debilitating 
illnesses such as asthma and bronchitis, and thousands of 
premature deaths due to cancer and heart disease, while the 
United States waits for the international shipping interest to 
do something about this problem?
    Response. In every instance when illness or death is caused 
by individual or commercial activity it should be incumbent 
upon government, and each of us to mitigate the effects of that 
activity, and including international shipping. However, we 
must be cognizant of broad consequences of acting unilaterally 
to the detriment of the maritime industry which provides 
economic security for millions of our citizens. Therefore, we 
again urge that the Congress allow the IMO treaty process to be 
concluded.

    Senator Boxer. Thank you, sir.
    Before I start my questioning, and we will each have 5 
minutes to question, I would like to place in the record a 
summary of a new study just last month that found that if 1,000 
parts per million sulfur standard is adopted within 200 miles 
of the world's coastlines, premature mortality would be cut in 
half, saving more than 40,000 lives every single year. And the 
second thing I want to place in the record is a letter coming 
from the National Association of Clean Air Agencies, this is 
national and not just about California by any stretch, 
supporting the legislation. So we will put those in the record.
    [The referenced documents follow:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Boxer. And now if you could start my time.
    You know, in the history of our Country, every time we pass 
a bill to protect the health of our citizens and cleanup the 
environment, there are always people who say it is going to 
take away jobs. From the State and the Nation that has been in 
the vanguard here, the opposite has been proven true. We can do 
it. This is America. We can work and be safe at the same time. 
And as a matter of fact, I want to praise some in the industry. 
Maersk Shipping Company is doing this without a regulation. 
They get it.
    So for people to say this is the worst thing that could 
happen, I just think talk to some of the people in your own 
shipping business. I just feel this is something we ought to be 
on the same page on. Now, let me be clear. I favor the 
international treaty and moving forward.
    Again, I want to thank Mr. Wood-Thomas. And by the way, if 
you have to leave, I understand. I am so appreciative of your 
being here.
    We would much prefer to do it that way, but we are not 
going to sit around and see people die. Would you put up that 
chart again? We are not talking about California, sir. We are 
talking about the Gulf Coast. We are talking about the Texas 
Coast. We are talking about the Florida, New Jersey, New York, 
all the way up the West Coast. This is a national problem, so 
let's be very clear about it. That is why we have a lot of 
folks from different port areas on this bill.
    Jonah, I want to ask you because I do have one person in my 
family with asthma, but I am not familiar with a child having 
asthma. In other words, my kids didn't have asthma. So could 
you just give us a sense of what it feels like when you have an 
asthma attack? And what do you do when you have one? And what 
effect does asthma have on you and your family?
    Mr. Ramirez. Well, when you have an asthma attack, it feels 
like as if a grown man was sitting on your chest. It hurts 
really bad and then you start wheezing and you start coughing a 
lot and trying to get air in and out. And so you are supposed 
to try and take it easy and get your inhaler and take a puff of 
that, and then wait and take another one. And then once you 
start feeling better, you will feel your chest start to clear 
up.
    But it affects me because like if I am playing a sport, and 
all of a sudden I will just start having the asthma attack, 
only to go back and sit down and get my inhaler and it would be 
better. Because if I didn't have asthma, then I could just play 
out there without coming in and worrying about do I have my 
inhaler or do I not.
    Senator Boxer. Do you have to take your inhaler all the 
time?
    Mr. Ramirez. Yes.
    Senator Boxer. Everywhere you go?
    Mr. Ramirez. Yes, I can't leave it at home.
    Senator Boxer. Right. Do you know a lot of other kids in 
school or in your neighborhood who have asthma or other 
breathing problems? Is it common?
    Mr. Ramirez. Yes, like just recently a bunch of my friends 
started coming up with asthma, my cousins.
    Senator Boxer. Do they live in the neighborhood around 
where you live?
    Mr. Ramirez. Yes. They all live in California.
    Senator Boxer. Yes. Well, we are going to do everything we 
can to clear up the air.
    I would ask Dr. Miller, because we all feel bad about this, 
regardless. Can you explain how reducing port pollution could 
have immediate benefits, or would they not? In other words, if 
a kid is resilient, would they come back?
    Dr. Miller. Well, there is evidence that if you take a 
child out of a high-polluted environment, if the family moved, 
and this is from the children's study done at USC, if a child 
moves from a high-polluted environment to a less-polluted 
environment, they do better. So clearly if you can make the 
entire environment better, we would have a lot of children 
doing a lot better with that particular disease process, sure.
    Senator Boxer. So it is a direct relationship.
    Dr. Miller. This would have immediate benefit.
    Senator Boxer. Good.
    Dr. Miller. Get the poison out of the air and help the 
children live better. It is that simple.
    Senator Boxer. I hear you.
    Mr. Accardo, you said in your written testimony submitted 
to the Committee that the IMO has demonstrated an impressive 
record of monitoring air pollution emissions, as well as sulfur 
content of marine fuel. Given that the industry averages about 
27,000 parts per million sulfur, more than 1,000 times the 
level we impose for our own trucks and buses, and given the 
fact that between 2,000 and 5,000 people die per year as a 
result of ship emissions, how do you call what they are doing 
``impressive''?
    Mr. Accardo. Well, in 1 year they have reduced the average 
from 2.7 to 2.59. Now, in the scheme of things, you are right. 
It is not a great deal of reduction. Senator Boxer, I would 
like to make it clear that we support the reduction of 
pollutants as far as it is economically possible. We support 
the concept you have in your bill.
    The differences are we support taking action on an 
international basis with our trading partners. We commend you 
for your efforts on this bill, but we suggest that if we can do 
this through the IMO with the negotiations that are going on 
now and achieve exactly the same kind of standards you have in 
your bill, we support that. As I said, we are personally 
involved. We all have children and even adults who have asthma.
    Senator Boxer. I know.
    Mr. Accardo. And we don't want to see one person die 
because of a pollutant coming from anywhere, ships or any other 
place.
    Senator Boxer. Well, my time is running out. I do 
understand that. I do. I just feel that we have waited since 
2003. It is 2008. How long does Jonah have to wait? That is the 
issue. I mean, October, if we are going to get it done, will we 
get it done? Or will we just stand still.
    So I want to place in the record that according to a report 
by Dr. James Corbett, there are 100 to 150 premature deaths per 
year in Louisiana due to these ship emissions. So it is a major 
health issue, as I said, all over the Country, in my State and 
in Louisiana as well, and I am sure in Maryland, New Jersey, 
wherever you look where there is a port.
    [The referenced document follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Boxer. Thank you.
    Senator Vitter.

     STATEMENT OF HON. DAVID VITTER, U.S. SENATOR FROM THE 
                       STATE OF LOUISIANA

    Senator Vitter. Thank you, Madam Chair.
    Before my time begins, I would just like to ask unanimous 
consent to put my written opening statement in the record.
    Senator Boxer. Without objection.
    [The prepared statement of Senator Vitter follows:]

         Statement of Hon. David Vitter, U.S. Senator from the 
                           State of Louisiana

    Thank you, Chairwoman Boxer and Ranking Member Inhofe, for 
holding this hearing on the Marine Vessel Emissions Reduction 
Act of 2007. It is legislation that I think we need to further 
examine and I look forward to discussing today in Committee.
    I would like to welcome all the witnesses, and also 
introduce several witnesses from Louisiana who are testifying 
today. We are joined by:

     Ms. Jennifer Mouton, of the Louisiana Department on 
Environmental Quality, Administrator of the Air Quality 
Assessment Division of the Louisiana Office of Environmental 
Assessment;
     Mr. Joe Accardo, Executive Director of the Ports 
Association of Louisiana;
     Mr. Joel Chaisson, Executive Director of the Port of 
South Louisiana; and
     Mr. Ken Wells, President, Offshore Marine Service 
Association.

    I respect that California is struggling to meet their air 
quality standards, especially with regards to particulate 
matter and NO<INF>x</INF>. While this legislation appears 
straightforward, addressing sulfur in marine diesel fuel to 
lessen particulate matter, I believe that this bill may have 
unintended and severe economic consequences for other states 
like Louisiana, who are in attainment with particulate matter 
and NO<INF>x</INF>.
    The maritime industry is essential to Louisiana's economy. 
Louisiana's ports contribute 33 billion dollars to our State 
economy, and support over a quarter million jobs. Two of the 
nation's top ports are located within Louisiana. In fact, the 
Port of South Louisiana, represented at this hearing by Mr. 
Joel Chaisson, is the nation's #1 port in total tonnage.
    This bill seeks to impress stringent regulations on both 
domestic and foreign flagged vessels. For Louisiana ports, this 
could negatively affect us in several ways. First, we are 
concerned about the impacts this legislation would have on 
business at Louisiana ports. Foreign vessels could take their 
business elsewhere if they are not wishing to comply with the 
regulations proposed in S. 1499 and could simply dock in Mexico 
instead and truck their cargo across the U.S. border.
    These same foreign vessels are part of the U.S. export 
trade, so this bill could lessen our export capability. Rate-
sensitive Mississippi River exports, like grain, could be 
severely impacted. This would not affect just Louisiana, but 
all states that depend on the Mississippi River for transport 
of their goods.
    A second concern is this legislation would place U.S. 
vessels in the Gulf of Mexico at a worldwide economic 
disadvantage. Engine upgrades and control technology required 
by this legislation are costly. Domestic vessels working 
overseas would have to absorb these costs, lessening their 
international competitiveness against foreign flagged vessels.
    Marine vessel emissions are a global issue, and should be 
addressed from a global perspective. The U.S. has already 
submitted a proposal for stronger emissions standards to the 
International Maritime Organization, and they are currently 
examining it as an option. Supporting S. 1499 would push the 
U.S. toward unilateral action, rather than global cooperation.
    I understand that the international marine emissions 
agreement (MARPOL Annex VI) prohibits unilateral action on the 
part of a signatory state. As a signatory to this Treaty, the 
U.S. would be required to abide by the Treaty's various 
obligations, including aligning domestic legislation to conform 
to the Treaty.
    I am interested in hearing more about the progress made 
with the IMO negotiations. Rather thank create a blanket, one-
size fits all approach for both areas in attainment and non-
attainment, I am interested to hear more about proposals that 
have come up through the IMO negotiations that create specific 
Sulfur Emission Control Areas (SECA) to address air quality 
problem areas such as California that really have an air 
quality problem and are in non-attainment for particulate 
matter and NO<INF>x</INF>.
    We should also be cautious of unintended environmental 
impacts. According to the IMO Secretary General's report on the 
outcome of the Informal Cross Government/Industry Scientific 
Group of Experts, ``in countries that are subject to the Kyoto 
Protocol, the addition of major new refinery equipment 
resulting in an increase in CO<INF>2</INF> emissions may be a 
concern''. Low sulfur marine diesel fuel requires additional 
refining, which may increase greenhouse gases like 
CO<INF>2</INF>. This legislation should not have the world 
exchange one set of air quality problems for another.
    I would like to ask UC to include a letter in the record 
from the Engine Manufacturers Association opposing passage of 
S1499. The EMA is actively involved and working with the U.S. 
EPA, other nations and international regulatory organizations 
to reduce exhaust emissions from ocean going vessels.
    We all agree that improving air quality is important. 
However, I don't think nationalizing California's standard is a 
good precedent. Unlike California, Louisiana is in attainment 
for both particulate matter and NO<INF>x</INF>. This bill seeks 
to force a ``one size fits all'' ruling on all ports in all 
states, when the factors are certainly not the same across the 
board.
    We need to consider not just the benefits of this 
legislation, but how this impacts our economy, so that we can 
work toward the best interest of all states, and also in the 
best interest of the U.S. compared to the rest of the world. 
Thank you, and I look forward to hearing from our witnesses.

    Senator Vitter. And also to put in the record a letter of 
opposition to the bill from the Engine Manufacturers 
Association.
    Senator Boxer. Without objection, so ordered.
    Senator Vitter. Thank you.
    [The referenced document follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Vitter. Thank you all for being here.
    And Jonah, thank you especially. You are a very impressive 
and poised young man.
    Mr. Ramirez. Thank you.
    Senator Vitter. I say that with real appreciation, having 
two 11 year olds at home. You are really impressive. Thanks for 
being here.
    And I thank all of you for being here.
    Dr. Miller, I want to ask you, as I understand and read 
your testimony, it comes out of great personal experience in 
Southern California, with what you call a diesel death zone 
there. Do you have personal work experience or personal study 
work with regard to Louisiana?
    Dr. Miller. Well, Senator, no, although I did go to medical 
school in Houston, at Baylor down the way. When I was in 
medical school in Houston, we had a bad air problem in Houston. 
Houston also has a port, but I have never practiced in 
Louisiana.
    Senator Vitter. Right. OK. And Dr. Miller, this California 
diesel death zone that you talked about so compellingly, it is 
out of compliance, in non-compliance for particulate matter and 
NO<INF>x</INF>. Correct?
    Dr. Miller. That is my understanding, yes. And I assume if 
it got in compliance----
    Senator Vitter. For particulate matter and NO<INF>x</INF>, 
the issues, the problems you are talking about, the problem 
that Jonah so eloquently talked about from personal experience, 
that would be a lot better, I assume. Correct?
    Dr. Miller. That is what we would think, yes, sir.
    Senator Vitter. OK. You are aware, I assume, that these 
similar port areas in Louisiana are in compliance for 
particulate matter.
    Dr. Miller. That is what the gentlemen over here were 
saying, yes.
    Senator Vitter. OK. I think that is a pretty significant 
difference. I can understand why Senator Boxer has this bill. 
There is a big problem in your area in California. That area is 
out of compliance, and so why not penalize and hurt the 
competitiveness of every U.S. port so they can get in 
compliance and not lose ground competitively to other U.S. 
ports. I understand that from the distinguished Chair's 
perspective. I obviously disagree with it from the Louisiana 
perspective because Southern California is out of compliance 
and Louisiana is in compliance.
    I would just ask why isn't it a much more straightforward 
approach, at least as an initial step, to say to those areas 
out of compliance in particulate matter and NO<INF>x</INF>, get 
in compliance. Do something about it. Do whatever it takes. And 
if it means you have to put a seal on the traffic coming into 
your ports or you have to reduce it, then do that. Why wouldn't 
that be a reasonable first approach?
    Dr. Miller. With all due respect, Senator, I do see that 
this is a nationwide problem. We just heard of a number of 
pollution-related deaths in Louisiana, whether or not you are 
in compliance there. But this bill would provide a level 
playing field all across the Nation.
    As I hear this testimony, it sounds just like the old usual 
job blackmail that comes up every time change is presented to 
an industry. You know, when the automobile industry was told 
that we had to use unleaded gasoline, they all said the sky was 
going to fall, we are all going to lose our jobs, we are all 
going to be poor, et cetera, et cetera. It didn't happen.
    This is just knee-jerk opposition to change that is needed. 
This is needed on a nationwide basis to establish a nationwide 
level playing field. These shippers need our ports more than we 
need these shippers, in China, for example.
    Senator Vitter. Let me just clarify, because I don't think 
I am stating that sort of knee-jerk opposition. What I am 
saying is, there is a problem in Southern California under 
current law. You are out of compliance. Don't drag us down to 
fix it.
    There is current law. Southern California is out of 
compliance. Why doesn't that area do something about it, 
including putting restriction on the port if that is necessary? 
But why are we being dragged down the same amount? I would 
suggest it is so that those ports aren't hurt competitively.
    Dr. Miller. Sir, I can't answer that question because I am 
a medical doctor. I am not a policymaker. I am here to try to 
save people's lives. I am here to try to speak for people like 
Jonah, people who have had cancer, heart attacks, strokes. From 
my perspective, America would save an awful lot of money if we 
started cutting into this enormous health burden that this 
industry has gotten off scot-free on for so long. The testimony 
has been very clear. This industry gets off scot-free. American 
companies are heavily regulated on the ground to try to fix 
this. It is not that we haven't tried to fix this in Southern 
California.
    Senator Vitter. Well, it is that you haven't succeeded. 
Again, the comparable areas in Louisiana are in compliance.
    Senator Boxer. This will be your last question because you 
are over time.
    Senator Vitter. Thanks.
    The other obvious approach besides what I outlined in terms 
of let's do something about those areas that are not in 
compliance is, as you suggested, to do something 
internationally, which is being worked on. Now, the argument 
is, well this would affect all U.S. ports equally, no 
competitive disadvantage there, but I think that sort of 
ignores the international nature of all the commerce we are 
talking about. Can you comment on that?
    Mr. Accardo. Yes. That is our position, that we should 
approach this with our international trading partners. That 
way, the same standard should apply across the board to every 
port. We in Louisiana particularly are fearful of the fact that 
the huge amount of grain we export could easily shift to 
another country--Brazil, Argentina, or Canada--if those ports 
aren't similarly required to follow the same standard that we 
follow.
    Now, as I said earlier, we agree that there needs to be 
similar standards as you propose in your bill imposed upon the 
international community. We disagree on the approach. We say 
the way to do that is through the IMO Annex VI amendments, 
which the U.S. is trying to put into effect. That is what we 
advise and ask you to do, rather than doing this on a 
unilateral basis as this bill might do.
    Senator Vitter. OK. Thank you all very, very much.
    Senator Boxer. Thank you.
    I want to place in the record testimony from a Republican 
witness saying that Louisiana does not have ozone attainment. 
So that is an important point, I think.
    All right, Senator Lautenberg.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thank you, Madam Chairman, for holding 
today's hearing and identifying a source of difficulty with 
asthma in particular, but other respiratory diseases as well 
that come from ships, as well as from cars, trucks and 
factories. We have to get to work on it.
    I am going to take a moment to tell you about my sister, 
who is named Marian. She was a member of the school board in 
Rye, New York, and she had asthma. She used to carry a little 
respirator-type machine in her car that she could plug into the 
cigarette lighter. She was at the school board one night and 
she began to feel a little queasy, and she started out for her 
car, and she collapsed in the parking lot, never to recover. 
Three days later, she perished. So we have seen it up front and 
personal.
    And Jonah, you sounded just like my grandson, because when 
he goes to play sports, he plays baseball and soccer and you 
name it. My daughter, his mother, first finds out where the 
nearest emergency clinic is so if he starts to wheeze, she 
takes him there right away, so it is exactly what you said. We 
thank you.
    I missed my colleagues here, and I heard reference to a 
geographic problem that ought to be taken care of, and why 
penalize Louisiana. Well, if we listen to Senator Mary 
Landrieu, she constantly pleads the case for Louisiana as a 
result of a national problem that occurred when Hurricane 
Katrina hit Louisiana. It became a national problem, even 
though it didn't affect everybody's neighborhood.
    So I don't understand that. This is a national problem, and 
by golly if we worry about stealing from one another, we don't 
understand what our responsibilities are here as national 
governmental officials.
    I want to put that sign up again. Bring it closer please. 
Do you see this? This is among the darkest spots on the map. 
That is New Jersey. We are terribly affected by it. I 
congratulate once again our Chairwoman. She knows where the 
problems are and she's out to get them.
    We don't have to agree on the process. We do have to agree 
that there is a plague in the United States, a plague across 
this world, and we have to start dealing with it. The example 
we had today from listening to your testimony, and Dr. Miller, 
yours as well, we touched on the human equation.
    Yes, there is an economic side, and I take the second seat 
to no one in the U.S. Senate. I started a company called ADP. 
It has 46,000 employees today. So I know something about the 
corporate world and I know something about economics. So we 
have to deal with the problems as we see them.
    One of the things that I must say, and I ask unanimous 
consent that my full opening statement be placed in the record.
    Senator Boxer. Without objection.
    [The prepared statement of Senator Lautenberg was not 
received at time of print.]
    Senator Lautenberg. I wanted to ask a question about, we 
recently learned about the threat that asthma poses, along with 
other threats to our environment and to the health and well 
being. I am told that there are 20 million asthma sufferers in 
the United States, and that includes 9 million children. I have 
also learned that in the State of Louisiana, there are 200,000 
adults suffering from asthma, and one in ten out of the 
children in that beautiful State has asthma.
    But I guess what we have to do is just make sure that the 
problems when they are in another place, they take care of them 
and it shouldn't affect what goes on in a State away from the 
issue.
    Forgive me for a moment. Mr. Wells, some opponents of the 
legislation to lower pollution from ships argue that the 
technology necessary to do so would cost too much. Won't the 
market for this technology become more competitive, more 
products available? We have seen this as we fight for a greener 
world that there are industries and opportunities creeping up 
all over the place to search for alternative energy uses for 
different standards for buildings and so forth. Don't you think 
that also might happen or would happen in the industry that 
produces these products?
    Mr. Wells. We certainly hope so. We absolutely agree with 
you that that should happen. We hope it will happen. Recognize 
that our industry is already trying to come into compliance 
with the EPA regulations that will released soon, but our 
vessel operators are making vessel orders to the year 2010, 
2011. So they are having to order equipment now which has never 
been produced. We are going to find out if the market can 
deliver.
    Senator Boxer.
    [Remarks off microphone.]
    Senator Lautenberg. OK. Thank you very much, Madam 
Chairman.
    Senator Boxer. Senator Cardin.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Well, Madam Chair, first let me thank you 
for your leadership in introducing the Marine Vessel Emissions 
Reduction Act of 2007. I would ask unanimous consent that my 
opening statement be made part of the record, along with a 
letter from the Maryland Department of the Environment in 
support of the legislation.
    Senator Boxer. Without objection, so ordered.
    [The referenced documents follow:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Cardin. At the Port of Baltimore, we have about 
2,000 vessel calls. When I take a look at the map that you put 
up, you are certainly in an area of major concern. I might also 
point out that where the emissions occur is not always where 
the problems will center. We do have atmospheric pressures and 
winds and it affects this entire Country. So I do believe we 
have a national problem.
    To Jonah Ramirez and to Dr. John Miller, I want to thank 
both of you for putting a face on the problem. I listen to 
statistics all the time, but I can tell you it is a lot more 
powerful to see the real people that are affected by what we do 
here. I know it is an inconvenience to come to our Committee, 
and we thank you very much for being here.
    I want to ask our representatives from the various ports a 
question. I have been in the legislating business for a long 
time. I know that your intentions are correct in trying to get 
stronger standards for dealing with vessels. However, it seems 
to me that it is easy to say that and go on to the next issue. 
We have been trying to deal with this problem for some time.
    We have had other problems in the history of this Country 
where we have had to impose or want to impose restrictions on 
our ports, dealing with commerce, because we don't want to deal 
with certain countries for whatever reasons as part of our 
foreign policy. I recall very vividly the same statements being 
made by the different ports saying, gee, if only this was 
international, we support it; we don't want to do business with 
this country, but why would you want to pick on our ports, when 
we would be at a competitive disadvantage?
    I have seen the same thing happen at times when we have 
done environmental rules. Why do it locally when it just 
penalizes our economy. And we went ahead and did it. And then I 
found that for some reason, our leaders were much more 
effective in convincing their colleagues that we did need an 
international standard and international support.
    So my question to you in dealing with your colleagues on 
the an international basis, and dealing with the ship lines, 
which by the way come to more ports than just California ports. 
I am glad, Madam Chair, that you have been able to have some 
success with one shipper in California, but some of us would 
like to see that in our ports, and we don't have it in our 
ports.
    I would just like your view as to whether the passage of 
this bill might in fact help you get the international 
standards that are so important here. Because I agree with you, 
I want to see this internationally. I am worried about what is 
in the atmosphere, because what happens in Canada affects the 
United States.
    So I think we would be doing you a favor by getting your 
colleagues much more engaged on the urgency of getting this 
done, if the Congress showed some leadership, the United States 
showed some leadership on this very important environmental 
issue that we all agree is important and we need to get done.
    Mr. Accardo. We suggest that the better way to approach it 
is through the IMO and the Annex VI amendments that the United 
States is trying to achieve. One of the alternatives we suggest 
is that if you are going to adopt this S. 1499 that it should 
perhaps contain the exact proposals that the United States is 
offering in its amendments to Annex VI.
    Senator Cardin. Can I ask how much time your members have 
spent in lobbying the international community to try to get 
this done? Do you spend time talking to your colleagues around 
the world about the importance of getting this done?
    Mr. Accardo. I didn't understand the first part of your 
question.
    Senator Cardin. I am curious as to how much effort is being 
made by the port operators in our Country to get these 
international standards achieved.
    Mr. Accardo. I can only speak from the prospect of 
Louisiana Ports, we are relying on the Administration to do 
that through the IMO.
    Senator Cardin. That is exactly my point. I am sure the 
Administration is working hard at this. But if you had an 
invested interest not only for the health of the people of our 
community, but also because you perceive an economic problem if 
we don't have an international standard, I would suggest you 
would get personally involved. The more people who get 
personally involved, the better chance we have of getting this 
done. We have been waiting a long time to get these standards 
improved. I think the United States needs to show leadership. 
When we do, we find that a lot more people get involved in the 
political process and we get results.
    Thank you, Madam Chair.
    Senator Boxer. Thank you very much.
    We are going to move to our final panel. Again thank you to 
all of you, our Louisiana friends for coming, to Jonah and Dr. 
Miller. We are so happy to have your testimony. Happy 
Valentine's Day, Jonah.
    [Laughter.]
    Senator Boxer. And Richard Kassel, thank you.
    So we will move to panel two, which has now become panel 
three: Dr. Barry Wallerstein, Lisa Jackson, and Jennifer 
Mouton.
    OK. Again, we welcome you and we look forward to your 
testimony.
    We will start with Dr. Wallerstein, Executive Officer, 
South Coast Air Quality Management District.

  STATEMENT OF BARRY R. WALLERSTEIN, EXECUTIVE OFFICER, SOUTH 
             COAST AIR QUALITY MANAGEMENT DISTRICT

    Mr. Wallerstein. Good morning, Madam Chair and members of 
the Committee. Thank you for this opportunity to appear before 
you today on this critical air quality issue.
    The South Coast Air Quality Management District is tasked 
with achieving Federal clean air standards in the Greater Los 
Angeles region. It is home to 16 million Americans, about 4 
percent to 5 percent of the Nation's population. We are big 
supporters of S. 1499 quite simply because it will save lives. 
It is feasible. It is cost-effective, and the time to act is 
now.
    The legislation is needed because marine vessels are the 
largest uncontrolled source of air pollution in many areas of 
the Country, causing at least 2,000 to 5,000 premature deaths 
every year across the Nation. Marine vessels burn fuel with 
sulfur content 1,800 times higher than allowed for on-road 
large trucks or off-road mobile equipment. As a result, in 
Southern California vessels create 70 percent of our sulfur 
oxide emissions.
    We will not be able to attain the Federal ambient air 
quality standard for fine particulate by the 2015 deadline 
unless these emissions are cut by approximately 90 percent. 
Ocean-going vessels will soon also become our single largest 
source of nitrogen oxide emissions, emitting more than all of 
our refineries and power plants combined. We will not attain 
the Federal ozone standard by mandated deadlines unless those 
emissions are substantially reduced.
    Moreover, particulates emitted by marine vessels create 
significant cancer risk for millions of people. Let me note 
that attainment of the Federal particulate standard does not 
mean an absence of significant carcinogenic risk. In our area, 
controlling these emissions will prevent over 700 premature 
deaths annually, and will substantially reduce thousands of 
deaths occurring nationwide, as you have heard, if the proposed 
bill is enacted.
    It will also reduce asthma, other respiratory diseases, as 
well as acid rain and regional haze. These emissions reductions 
are feasible. As you have heard, Maersk, the largest container 
line in the world, is now switching to low-sulfur fuel in all 
ships approaching Southern California ports. The United States, 
as you have heard, recognized the feasibility and need for such 
actions when it proposed to the IMO a requirement of 1,000 ppm 
sulfur fuel beginning in 2011, requirements that are consistent 
with S. 1499. Key shipping industry representatives support 
this U.S. proposal.
    The costs to implement this bill, in our view, are 
reasonable. Although low-sulfur fuel is more expensive, the 
added shipping costs would be relatively low because the clean 
fuels would only be required for a relatively small portion of 
each voyage.
    So let's put this into perspective. The fuel costs would 
increase per container shipping costs by only one-fifth to one-
fourth of 1 percent. From the standpoint of a consumer, the 
cost of a 60 inch plasma TV would rise due to higher fueling 
cost, but by only 43 cents to 96 cents. The cost for a pair of 
shoes would go up by one-fifth to two-fifths of one penny. The 
thousands of lives that would be saved by these moderate costs 
make this bill a true environmental bargain.
    Now, you have heard that maybe we should wait for the IMO 
to adopt these standards. We believe you should reject this 
notion for two reasons. First, there is no assurance that the 
IMO will adopt standards sufficient for this Country. Indeed, 
the IMO has never adopted standards even approaching U.S. 
needs. It is notable that at least since 2003, U.S. EPA has 
cited its desire to work through IMO as reason to delay 
deciding whether EPA can and should regulate foreign-flag 
vessels. After years, we still don't have effective IMO 
standards or EPA rules.
    Second, S. 1499 is entirely consistent with the U.S. 
proposal to IMO. Moving ahead with this bill should help spur 
IMO action in a manner that is more appropriate relative to the 
U.S. needs. It is important to note that U.S. EPA has better 
authority under the Clean Air Act to restrict emissions. So we 
really do need Federal action on this item.
    In closing, there is a growing coalition of support for S. 
1499. The Port and city of Long Beach and the Port and city of 
Los Angeles are two examples of supporters. They want their 
ports to grow and they know that clean air is a critical 
component of economic development.
    The National Association of Clean Air Agencies is also in 
support, as are individual air agencies from States such as 
California, New York, New Jersey, Rhode Island, Montana, 
Maryland, Colorado, Pennsylvania, Oregon and Washington State.
    We thank you, Madam Chair, for introducing this landmark 
legislation. We also thank the Committee members for their 
consideration of this important national issue.
    [The prepared statement of Mr. Wallerstein follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
       Responses by Barry R. Wallerstein to Additional Questions 
                           from Senator Boxer

    Question 1. The California Air Resources Board has 
attempted to enforce regulations based on California State laws 
that would help reduce pollutant emissions from marine vessels, 
but Federal court rulings have found that they were preempted. 
Do these court rulings suggest a need and urgency for passing 
8.1499? Please explain.
    Response. These rulings clearly support the need and 
urgency for passing S. 1499, for the following reasons:

    Background: The Litigation. The court rulings came in a 
case brought by the Pacific Merchant Shipping Association 
(PMSA), an industry group made up of marine carriers. The case 
challenged a rule adopted by the California Air Resources Board 
(CARB) which sought to reduce sulfur in fuel burned in 
oceangoing marine vessels' auxiliary engines in order to limit 
emissions of particulates and sulfur oxides. The district court 
and the Ninth Circuit Court of Appeals determined that the rule 
is preempted by the Federal Clean Air Act (CAA). The court 
stated that California cannot enforce the rule unless it 
obtains an authorization under CAA Sec. 209(e) from U.S. EPA. 
This type of authorization is similar to a waiver for
    California automobile standards under CAA Sec. 209(b) (such 
as the waiver that EPA recently refused to grant California for 
greenhouse gas standards).
    Additional Litigation is Likely. PMSA stated additional 
grounds for challenging the CARB rule. but the court did not 
decide them since it invalidated the rule on the grounds 
described above. IfCARB seeks to implement the rule. such as by 
seeking a waiver, more litigation on these additional claims 
can be expected. More importantly. litigation can also be 
expected if CARB adoptc; a main engine fuel sulfur rule. If 
such litigation similarly results in delay or invalidation of 
fuel sulfur rules. compliance with Federal attainment deadlines 
would be jeopardized and public health impacts would be 
substantial, as is described below.

    Question 2. Only a Federal law can assure that rules 
requiring emission reductions from oceangoing vessels will be 
implemented without the threat of further legal challenges 
based on preemption grounds.
    Response. Cutting Fuel Sulfur is Essential to Attain 
National Ambient Air Quality Standards as required by Federal 
Law. Ship pollution impacts many areas of the country which are 
designated non attainment for particulates or ozone. or which 
are affected by toxic diesel particulate emissions. In 
California, for example, the invalidated CARB auxiliary engine 
rule is an essential part of the State Implementation Plan 
(SIP) to attain the Federal ``annual'' PM<INF>2.5</INF> ambient 
air quality standard. Another essential part of this plan is a 
measure to cut oceangoing vessel main engine fuel sulfur. The 
SIP assumes that both auxiliary and main engine fuel sulfur 
will be reduced to .1 percent (1.000 ppm) by 2011 (consistent 
with S. 1499). Marine vessels create close to 70 percent of 
regional sulfur oxides emissions, as well as substantial 
quantities of directly emitted particulates. Sulfur oxides 
react in the atmosphere to form fine particulates. It will be 
mathematically impossible for the South Coast Basin to attain 
the Federal PM<INF>2.5</INF> ambient air quality standards 
unless marine fuel sulfur reductions on the order required by 
the CARB rule or S. 1499 occur.
    Urgency to Meet Federal Deadlines. Such fuel sulfur 
reductions must occur soon in order for the South Coast Air 
Basin to comply with Federal deadlines. The State must 
demonstrate attainment of the Federal ``annual'' 
PM<INF>2.5</INF> ambient air quality standard by 2014 in order 
to comply with the 2015 attainment deadline in the South Coast 
Air Basin.
    Urgency to Prevent Public Health Impacts. The recent study 
by Dr. James Corbett of the University of Delaware projected 
that at least 2.000 to 5.000 premature deaths per year in the 
continental U.S. are caused by particulate pollution from 
oceangoing vessels. Analysis by the South Coast Air Quality 
Management District (SCAQMD) concluded that over 700 premature 
deaths would be prevented every year in the South Coast Basin 
if the marine vessel controls in the State Implementation Plan 
were implemented. \1\ This accounts for over one third of the 
health benefits of the entire SIP to attain the annual 
PM<INF>2.5</INF> standard in the South Coast Air Basin. The low 
sulfur fuels that would be required by CARB rules or S. 1499 
would provide a large part of this health benefit. Marine 
vessels also create cancer risks of over 100 in a million for 
over four million persons in the South Coast Air Basin. with 
maximum risks exceeding 1,000 in a million. By comparison, 
stationary sources in the South Coast Air Basin are subject to 
regulatory risk limits of between 1 and 25 in a million.
---------------------------------------------------------------------------
    \1\ http://epa.gov/olaq/regs/nonroadlmarinelcilmvbenefils20071018-
b.pdf.
---------------------------------------------------------------------------
    Urgency Due to Large Number ofShips on Order for 
Construction. There are currently an extraordinary number of 
oceangoing vessels on order for construction. Once those 
vessels are built and in the water, the technical and economic 
challenges to retrofit emission controls will grow 
tremendously. Some advanced technologies may not be able to be 
retrofitted into existing vessels at all due to space 
constraints (e.g. selective catalytic reduction (SCR) of 
NO<INF>x</INF> emissions). There is thus great urgency to 
establish standards for new-build vessels, as S. 1499 would 
require.
    Application of advanced NO<INF>x</INF> control technologies 
such as SCR to ships is essential. Such controls are needed to 
attain both Federal particulate and ozone standards. Oceangoing 
marine vessels will soon be the third largest source of 
nitrogen oxides in the South Coast Basin and, if not 
controlled, will by 2023 become the single largest source.
    The litigation challenging CARB's auxiliary engine rule is 
an indication that any State rules seeking to limit nitrogen 
oxides emissions from oceangoing vessels (which rules would 
have greater impact on vessel equipment than the auxiliary 
engine rule) will be similarly challenged. Again, only a 
Federal law can assure that rules requiring emission reductions 
from oceangoing vessels will be implemented without the threat 
of further legal challenges based on preemption grounds.

    Question 2. Would moving forward toward enactment of S. 
1499 assist the U.S. in its negotiations before the IMO?
    Response. Yes. There is a clear tie between our nation's 
efforts to control vessel pollution--including S. 1499--and 
action by the International Maritime Organization (IMO). It is 
the view of many if not most observers that a primary reason 
IMO is currently discussing the possibility of more stringent 
standards is a concern by industry that nations, states and 
ports are moving to adopt vessel standards to address their 
public health needs. illustrating this motivation, the World 
Shipping Council, in supporting a U.S. proposal to IMO, stated:

    Failure to take decisive and effective action would 
puttheIMOatrisk of losing its leadership role and its ability 
to establish international standards that will be adopted and 
respected. For local, national and regional authorities to 
defer to the IMO, the organization must produce effective 
standards that meet the environmental objectives of those 
authorities, particularly in major urban port areas.\2\
---------------------------------------------------------------------------
    \2\ http://www.worldshipping.orgIVesseCair--ernissions--WSC--
posilion--papecon--USG--proposal.pdf.
---------------------------------------------------------------------------
    Further, as stated by the U.S. representative to IMO at the 
February 14, 2008 EPW Committee hearing on S. 1499, 
``introduction of the bill has helped demonstrate a commitment 
in the U.S. to addressing this issue.''
    Moving toward adoption of the Marine Vessel Emissions 
Reduction Act will thus demonstrate the leadership that will 
help spur IMO to act effectively; conversely, slowing this 
legislation will reduce pressure on IMO to act. With the recent 
meeting of the IMO Marine Environmental Protection Committee. 
and an upcoming meeting in October. this is clearly the time to 
maintain pressure on IMO.
    Also. continuing to move the legislation will ensure that. 
if WO once again fails to address critical air quality needs, 
the residents of this country will be protected.

    Question 3. Would you please expand upon what you have 
described as the reasonable costs of controlling marine vessel 
air emissions? Please describe in more detail the costs per 
item consumers are likely to see from these controls and how 
those costs compare to the benefits of controlling these 
emissions.
    Response. The AQMD estimates that the use of low sulfur 
marine fuel (LSMF) will result in an increase in fuel costs of 
$397 per ton, based on a recent assessment provided by the 
California Air Resources Board (CARB).\3\ This estimated fuel 
cost differential is consistent with the estimate of $400 per 
ton provided in recent study for the Port of Long Beach and the 
Port of Los Angeles.\4\ CARB estimates that the total 
annualized cost associated with the use of LSMF within 24 miles 
of the California coastline to be $272 million, which includes 
both the annualized fuel cost plus the annualized capital cost 
where needed to modify certain vessels. On a per container 20 
foot equivalent unit (TEU) basis, CARB estimates that the use 
of LSMF represents an average cost increment of $9.90 per TEll.
---------------------------------------------------------------------------
    \3\ Based on CARB 4th Public Workshop to Discuss Development of 
Regulations for Ocean Going Ship Main Engines and Auxiliary Boilers, 
Proposed Regulatory Language. March 5, 2008. slides 29-30, h.lp:/
Iwww.arb.ca.gov/pons!marinevessipresentatjonsl030508/030S08regpres,pdf.
    \4\ Low Sulfur Marine Fuel Availability Study, Final Repor,'', 
prepared for the Port of Long Beach and the Port of Los Angeles by 
Tetra Tech and U1traSystems Environmental Inc., March 10, 2008, pg. 80.
---------------------------------------------------------------------------
    The AQMD has extrapolated these estimates to the 200 mile 
Exclusive Economic Zone (EEZ) using the inventory stud;' 
performed by Dr. James Corbett of the University of Delaware on 
behalf of CARB.\5\ Based on Dr. Corbett's study, it is 
estimated that 45 percent of the fuel use within the 200 mile 
EEZ occurs within 24 miles of shore from the U.S. coastline. 
For the 200 mile zone, the AQMD estimates that the annualized 
cost from the use of LSMF will be approximately $576 million. 
which represents an average incremental cost per TEU of $20.97.
---------------------------------------------------------------------------
    \5\ Estimation. Validation and Forecasts of Regional Commercial 
Marine Vessel Inventories'', James Corbett. Jeremy Firestone. and 
Chengfeng Wang, for ARB, AprilS, 2007, Table 4, pg. 19, 
hllp:llwww.arb.ca.gov/researchlseca/jcfinal.pdf.
---------------------------------------------------------------------------
    The AQMD has estimated the relative impact these costs 
represent relative to baseline TEU transportation costs as well 
as selected consumer goods. The average baseline transportation 
cost per TEll, including both water and land transport 
segments, is $1.925, according to a Port of Los Angeles and 
Port of Long Beach study.\6\ Based on this data, the AQMD 
estimates that the use of LSMF will increase the price of 
shipping costs by 0.5 percent to 1.1 percent for the 24 mile 
zone and 200 mile zone, respectively.
---------------------------------------------------------------------------
    \6\ Container Diversion and Economic impact StUdy'', Port of Long 
Beach and Port of Los Angeles, September 27. 2007, pg.4. This data is 
adjusted to TEUs based on a factor of 1.85 TEUs I FEU.
---------------------------------------------------------------------------
    The AQMD has chosen two typical consumer goods to estimate 
the relative impact of the use of LSMF on consumer costs. For a 
60'' plasma TV, we estimate that the differential cost impact 
ranges from 55 " to $1.17 per TV, assuming 18 plasma TVs per 
TEU, for the 24 mile zone and 200 mile zone respectively. For a 
pair of shoes, we estimate a differential cost of 1I5th to Vz 
of one cent per pair of shoes for the 24 mile and 200 mile 
zones, respectively, assuming 4,160 boxes of shoes per TEU.\7\
---------------------------------------------------------------------------
    \7\ 20 x 8 x 10 feet TEU plus shoe box size of 1 x 9 x 6 inches.
---------------------------------------------------------------------------
    These cost impact estimates are based on new data presented 
by CARB on March 5, 2008 but are very similar to the data based 
on prior analyses that was presented at the February 14, 2008 
EPW Committee hearing regarding S. 1499. For example, the 
percentage increase in container shipping cost was revised from 
a range of 0.2--0.5 percent to a range of 0.6 percent--1.1 
percent. This small percentage increase likely overstates the 
relative degree of cost burden, as the baseline transportation 
cost used in these estimates has likely increased since early 
2007 when the baseline cost estimate was derived. The cost per 
60'' plasma TV increased slightly from a range of 43--96 to a 
range of 55--$1.55; the cost per pair of shoes increased from a 
range of 0.2 --0.4 to a range of 0.2--0.5.
    The AQMD believes these cost estimates are very realistic 
and reflect the best available data on this issue. The 
following table provides the basis of the estimates discussed 
above.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    <SUP>8</SUP> CARB. March 5. 2008 Workshop, as referenced in 
footnote 1.
    The cost effectiveness of LSMF use has been estimated by 
CARB to be $37 per pound of PM, assuming that the entire $272 
million annualized cost is allocated solely to the reduction of 
3,650 tons of PM per year.\9\ This cost effectiveness is 
comparable to other PM control measures such as the use of 
retrofit control devices on class 6 & 7 trucks, school buses 
and off-road trUcks.\10\ It should be noted that CARB estimates 
that LSMF will result in significant reductions in 
NO<INF>x</INF> and SO<INF>x</INF> emissions of 2,092 and 29,930 
tons per year, in addition to the PM reductions noted 
above.\11\ The cost effectiveness of LSMF use is therefore 
expected to be far better than $37 per pound if these emission 
reductions are included in such estimates. The following table 
provides the cost effectiveness comparison of various PM 
control strategies.
---------------------------------------------------------------------------
    \9\ Communication with Mr. Paul Milkey. CARB staff. April 3. 2008. 
Mr. Milkey indicated that the $47 per pound cost effectiveness estimate 
on slide 29 in the staff proposal was a typo and is actually $37 per 
pound.
    \10\ Cost Effectiveness of Heavy Duty Retrofits and other Mobile 
Source Reduction Projects'', U.S. EPA. May 2007, pg. 11-12, 
http:Uwww.epa.gov/oms/stateresQurceslpolicy/genera1l420b01006.pdf.
    \11\ Communication with Mr. Paul Milkey, CARB staff. April 3, 2008, 
regarding the emission reduction estimates underlying the estimated 
cost effectiveness of LSMF provided in the CARB March S, 2008 staff 
presentation.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    Question 4. Please provide any additional information or 
studies you have on the health effect of marine vessel 
pollution In other port areas In the United States.
    Response. There is limited information on marine vessel 
pollution health impacts in areas outside of California. A 
study by Dr. James Corbett estimated the amount of premature 
mortality from ship emissions on a global level. This analysis 
included estimates near ports in the United States as well. The 
figure below gives the estimates calculated. The emissions were 
derived from ships emissions inventories, and a computer model 
was used to estimate population exposures to particulate matter 
derived from ship emissions. The technical details can be found 
in the published study, which is attached. As shown, premature 
mortality in the various areas analyzed ranged up to 300 per 
year.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    Source: Corbett, J. J.; Winebrake, J. J.; Green, E. H.; 
Kasibhatla. P.; Eyring. V.; Lauer, A., Mortality from Ship 
Emissions: A Global Assessment, Environmental Science & 
Technology, 41(24):8512-8518,2007
    The California Air Resources Board (CARB) has recently 
released an assessment of cancer risks from diesel emissions in 
West Oakland, California. This community is adjacent to the 
Port of Oakland and a rail yard. CARB estimated an average 
cancer risk in the community from diesel exhaust exposure from 
the ports and other sources of about 1,200 per million over a 
lifetime exposure. Marine vessels contributed about 20 percent 
of this risk. The report is available at: http://
www.arb.ca.gov/ch/communities/ralwestoaklandlwestoakland.htm.
    Also, regulators in Santa Barbara, California have 
calculated that even though the area bas no commercial ports, 
passing ships release so much nitrogen oxides (NO<INF>x</INF> ) 
emissions in the area that they ``will be unable to meet air 
quality standards for ozone without significant emissions 
reductions from [ocean-going] vessels, even if they completely 
eliminate all other sources of pollution:' 72 Fed. Reg. 69,522 
at 69,527 (Dec. 7,2007).
    Furthermore, the U.S. EPA has conducted an analysis of 
toxic air pollutant levels throughout the U.S. Emissions 
inventories were used to model the average level of pollutants 
on a county level. Although health effects from exposure to 
diesel particulate were not calculated, the ambient levels 
estimated are presented in the figure below, and the levels are 
likely significant contributors to health risk. As can be seen 
in the figure, high levels of diesel particulate are in areas 
that are served by ports. Ship emissions likely contribute to 
these levels.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    As shown in the above map the highest range of diesel 
particulate shown is 1.12--8.41 micrograms/cubic meter. This 
corresponds to a lifetime cancer risk of 336 per million to 
2,523 per million.
    To put port emissions into perspective, the table below 
shows the emissions of NO<INF>xt</INF> PM<INF>2.5</INF> and 
sulfur oxides (SO<INF>x</INF>) from ships for several ports in 
the U.S. (Source: U.S. EPA Commercial Marine Port Inventory 
Development--Baseline Inventories ICF International, September, 
2006) All of these emissions are related to particulate 
emissions and secondary particulate formation. While the Los 
Angeles and Long Beach ports show the highest emissions other 
ports are also associated with substantial emissions.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    AQMD staff estimated the health impacts from ship emissions 
at the Los Angeles and Long Beach ports, and calculated that 
about 800 premature deaths per year result from particulate 
exposures related to ship emissions. In addition, vessel 
emissions create cancer risks of over 100 in a million for over 
4 million residents of Southern California, with maximum risks 
over 1,000 in a million (AQMD Multiple Air Toxic Exposure Study 
3 (2008)). The emissions data above indicates that health 
effects are likely to occur at other ports as well.
    In conclusion, although there are limited analyses of the 
health impacts available, ship emissions are major contributors 
to particulate emissions in port areas. These areas are also 
generally of high population density and the resultant 
exposures to particle emissions likely create significant 
adverse health effects.

    Senator Boxer. Thank you so much.
    And now Senator Lautenberg has asked if he can introduce a 
very special New Jersey witness. So Senator?
    Senator Lautenberg. I am so pleased to welcome Commissioner 
Lisa Jackson, Commissioner of the New Jersey Department of 
Environmental Protection, back to Washington. She spent some 
time here, 16 years with EPA. When New Jersey sent out our 
alarm on environmental problems, we were so fortunate to have 
Ms. Jackson come and join the Administration.
    We have worked on projects important to New Jerseyans, from 
keeping our water clean, fighting global warming. Even global 
warming, though it is a national thing, we are still fighting 
to make sure that we do our share and want to protect our 
State's strong environmental chemical security laws, 
reactivating Superfund cleanups, and all those things.
    I am so pleased to have her here today. I look forward to 
her testimony and our continuing to work together to solve lots 
of problems that we see ahead of us.
    Thank you very much.
    Senator Boxer. Thank you.
    With that, Commissioner Jackson.


    STATEMENT OF LISA P. JACKSON, COMMISSIONER, NEW JERSEY 
             DEPARTMENT OF ENVIRONMENTAL PROTECTION

    Ms. Jackson. Thank you, Madam Chair. And thanks to you and 
your staff for holding this important hearing.
    And thanks to my State's Senator for his leadership on this 
issue and so many that are so important to New Jersey and our 
Country.
    I come as Governor Corzine's representative today to thank 
you and to implore this Committee and eventually this Congress 
to pass this very important piece of legislation. I come as a 
child of a port city, having been born, raised and educated in 
the great city of New Orleans spoken about earlier, and knowing 
how important ports are to the life of a community.
    I come as the mother of a 12 year old who spent his first 
Christmas in the hospital with a severe asthma attack, and 
knowing how that feels to wonder about his next breath at such 
a young age.
    Madam Chair, you said this was a matter of health, and I 
couldn't agree more. I think it is also a matter of fairness. 
This is about leveling the playing field in this Country, and 
we saw and don't need to see again, I think, the map that shows 
that this is a national problem, with ports all over our 
Country that suffer to varying degrees, but all suffer. It is 
about understanding that air-sheds are regional and sometimes 
national in nature, and that in New Jersey, being on the East 
Coast, know that as the air blows, we are on the tail-end of 
emissions that affect the health of our residents.
    It is about realizing that in heating oil for our residents 
who have to buy heating oil in times when things are very 
expensive, we require 500 parts per million of sulfur, not 
27,000 parts per million of sulfur. And it is about 
understanding and realizing that it is only fair that the 
health costs that are borne by children like we saw earlier, 
and he was very eloquent, are borne by our society, whether 
that is employers and benefit plans or Medicaid or Social 
Security, the costs associated with the impacts on the lives of 
people become disabled. And I think we need to remember that 
the costs need to be looked at in that context as well.
    It is a matter of environmental justice. New Jersey is the 
most densely populated State in the Country, and two of our 
ports, Newark and Camden, are areas that include large numbers 
of minorities and large numbers of people who can't afford yet 
to move elsewhere and shouldn't have to move elsewhere in order 
to have clean air.
    It is about the fact that Newark is locked by rail and air 
and cars and trucks, and that a child in a park in Newark faces 
air that is two to five times more contaminated than a child in 
a park somewhere else.
    And port vessels aren't the only reason for that, but they 
are an important part of it, and they are the only unregulated 
source of SO2 emissions that large that still have no 
regulation on them.
    It is a matter of what I think is unshakable science and 
taking action based on unshakable science. Wind in this Country 
blows from west to east, from southwest to northeast, and we 
all know that being at the end of those kinds of currents means 
that we must do all we can to reach attainment for priority 
pollutants.
    I want you to understand that New Jersey has taken action 
to do just that. With respect to diesel programs, we have a 
mandatory diesel retrofit program in our State that requires 
that school buses and garbage trucks and transit buses and 
Government-owned vehicles are retrofitted to address diesel 
pollution. We pay for that out of our tax dollars.
    We have an idling outreach and education campaign, and we 
are phasing out a trucker's ability to have sleeper berths that 
run all night. And we require heavy duty diesels to be 
inspected. We have a suite of dozens of actions that we take on 
our own sources in our State to address air pollution. So we 
agree that we must step up and address it, but air blows across 
this Country from our own port over to New York and up the 
Northeast Coast and from areas south and west of us.
    Finally, I would just like to implore this Committee to 
realize that it really is, as Senator Cardin said, a matter of 
authority and leadership and impetus to force our own EPA and 
the international community to deal with this issue and to have 
the resolve and commitment needed to do it in an urgent manner, 
because every year is affecting people's lives and some lives 
are lost.
    Thank you very much, and I am happy to answer questions.
    [The prepared statement of Ms. Jackson follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
         Responses by Lisa P. Jackson to Additional Questions 
                           from Senator Boxer

    Question 1. Do you believe the emissions reductions that 
would be achieved by S. 1499 are important for port communities 
throughout the United States, and if so, why?
    Response. Yes, I believe that the reductions achieved by S. 
1499 would benefit all port communities.

     First, by regulating marine fuel on a national level, you 
will ensure that all ports are kept on a level playing field; 
legislation such as this not only protects the health of our 
citizens, but it helps to keep our ports competitive with each 
other.
     Second, as states continue to control emissions from 
other sources (e.g., power plants, industry, motor vehicles) 
and the number of ships picking up and dropping off goods at 
the ports continue to increase, the relative contribution of 
port emissions will be much larger. As indicated by U.S. EPA in 
its recent rulemaking, locomotive and marine diesel engine 
emissions currently represent approximately 20 percent of 
mobile source NO<INF>x</INF> and 25 percent of mobile source 
diesel PM<INF>2.5</INF>. By 2030, without additional emissions 
controls, locomotive and marine diesel engines will emit about 
35 percent of the total mobile source oxides of nitrogen 
emissions and 65 percent of the total mobile source diesel fine 
particulate matter emissions. Therefore, S. 1499 is important 
to ensure that the environmental ramifications of increased 
goods movement are minimized.
     Third, because ports typically are located in close 
proximity to highways and rail networks, the confluence of 
mobile sources results in high emissions and high exposure in 
port areas. By way of example, the Elizabeth, NJ air quality 
monitor near our north Jersey port has the highest 
PM<INF>2.5</INF> readings in the entire State. In addition, the 
national air toxics assessment shows that mobile source 
emissions in New Jersey (including those operating at or near 
the port areas) result in the greatest cancer risk of all air 
pollution sources in the State.

    Question 2. Would moving forward toward enactment of S. 
1499 assist the U.S. in its negotiations before the IMO?
    Response. Yes, I believe S. 1499 would enhance the ability 
of the U.S. EPA and the IMO to come to an agreement on reducing 
sulfur levels internationally and provide a necessary backstop 
if they fail to reach an accord. It is my understanding the 
U.S. proposal to the IMO is consistent with this legislation 
and thus there is no inconsistency between moving this 
legislation and concurrently seeking IMO action.
    I am also encouraged by the reported action by an IMO 
committee last Friday to propose standards similar to those 
contained in your bill. Specifically, if U.S. waters are 
designated as ``special protection areas,'' as set forth by the 
IMO committee, then a 1000 ppm limit would apply, although not 
until 2015. I believe S. 1499 may spur the IMO to move quickly 
to adopt stringent fuel sulfur limits.

    Question 3. Would you please elaborate upon the 
environmental justice issues that you testified upon, and 
whether such issues could be applicable in other parts of the 
country? Please explain.
    Response. New Jersey's ports are located in Newark/
Elizabeth and Camden--two comrilUnities with environmental 
justice issues. These communities are disproportionately 
impacted by emissions from numerous sources, many of which are 
associated with the economic activities of the port. As an 
example, a report by the New Jersey Environmental Federation in 
June 2006, ``Diesel Hot Spots: A Snapshot ofNewark, New 
Jersey,'' stated that the county in which the Newark port is 
located has the highest asthma related mortality rates in the 
State, with a doubling of the rates within minority 
populations.
    According to U.S. EPA, recent studies show that populations 
living near large diesel emission sources, such as major 
roadways, rail yards, and marine ports, are likely to 
experience greater diesel exhaust exposure levels than the 
overall U.S. population, putting them at greater health risk. 
The recent U.S. EPA rulemaking for marine and locomotive 
engines analyzed 47 ports and 37 rail yards and found that more 
than 13 million people living nearby are exposed to diesel PM 
levels above urban background levels, including a 
disproportionate number of low-income households, 
AfricanAmericans, and Hispanics. (Also see: State of California 
Air Resources Board. Diesel Particulate Matter Exposure 
Assessment Study for the Ports of Los Angeles and Long Beach, 
April 2006. http://www.arb.ca.gov/regact/marine2005/
portstudy0406.pdf)
    While some may contend that emissions from ships are a 
small portion of total fine particle emissions in a particular 
non-attainment area, I would emphasize that the localized 
impacts of diesel emissions are significant and justify the 
action envisioned by S. 1499.

    Senator Boxer. Thank you so much, Commissioner.
    And last, but not least, is Jennifer J. Mouton, 
Administrator, Air Quality Assessment Division, Louisiana 
Office of Environmental Assessment. Welcome.

  STATEMENT OF JENNIFER J. MOUTON, ADMINISTRATOR, AIR QUALITY 
    ASSESSMENT DIVISION, LOUISIANA OFFICE OF ENVIRONMENTAL 
                           ASSESSMENT

    Ms. Mouton. Good morning, Senator Boxer, Senator Vitter and 
distinguished members.
    My name is Jennifer Mouton. I am the Administrator of the 
Air Quality Assessment Division at the Louisiana Department of 
Environmental Quality.
    Senator Boxer and members of the Environment and Public 
Works Committee, I would like to thank you for the opportunity 
to address the Committee today and to provide these comments on 
S. 1499, the Marine Vessel Emissions Reduction Act of 2007.
    Due to Louisiana's geographic situation and natural assets, 
Louisiana is home to some of the most diverse economic 
interests in the United States. These interests include pulp 
and paper, agriculture, synthetic chemical manufacturing, 
natural gas transportation, processing and storage, power 
generation and petrochemical and refineries. There are 
extensive port systems. We serve as a major distribution center 
for many products that serve a significant portion of the 
United States.
    In fact, according to the U.S. Army Corps of Engineers 
Navigation Data Center, tonnage for selected ports in the 2006 
report, the Port of South Louisiana and Port of New Orleans are 
ranked No. 1 and No. 8 in the United States in total tonnage. 
The Ports of Lake Charles, Greater Baton Rouge, and Plaquemine 
are ranked 11th, 12th, and 13th respectively. Taken together, 
the ports along the Lower Mississippi River represent one of 
the busiest areas of marine commerce in the Country.
    Louisiana is a recognized leader in the protection of the 
environment, natural resources, health and quality of life. A 
spirit of cooperation and trust exists between State 
government, local government, business, universities and 
private citizens in seeking solutions to environmental 
problems. A healthy, beautiful environment, complementary job 
opportunities, and the unique culture of Louisiana all create 
an unmatched quality of life.
    The State of Louisiana has made significant progress in 
improving and maintaining air quality. The significant and 
continued progress in reducing air pollutant levels has 
resulted in Louisiana achieving attainment for all criteria 
pollutants, including the recently revised fine particulate 
standard, with the exception of a five parish area in and 
around Baton Rouge which is out of attainment for ozone only.
    Last year, we celebrated the success of a comprehensive 
collaborative effort of LDEQ, EPA, local industries, local 
government and community leaders in bringing the five parish 
Baton Rouge area into attainment with the previous 1 hour ozone 
standard. Although the 1-hour standard has been recently 
replaced by the new 8 hour standard, attainment of the old 
standard underscores the commitment of air quality improvement 
in the Baton Rouge area.
    Prevailing thought during earlier planning efforts was that 
attention for air quality improvement should be focused on 
major industrial sources and significant progress has been made 
in reducing industrial emissions. With stationary point sources 
well controlled, we must now look to additional areas such as 
mobile sources such as cars, trucks, trains, ships and area 
sources, such as homes, consumer products, small businesses, 
for the needed reductions.
    Therefore, we believe that it is appropriate to look at 
port activities, among others, and consider their impacts on 
air quality. S. 1499 proposes to amend the Clean Air Act to 
direct the Administrator of the Environmental Protection Agency 
to promulgate regulations that limit the sulfur content in 
fuels for specified marine vessels in their main and auxiliary 
engines. A reduction in diesel particulates and sulfur oxide 
emissions as envisioned in S. 1499 would obviously benefit the 
citizens of fine particulate and sulfur oxide non-attainment 
areas in this regard. Such reductions would provide for 
improved air quality for all of the coastal and river corridor 
communities.
    However, Louisiana is in attainment with the fine 
particulate national ambient air quality standard and our 
efforts are currently aimed toward ozone attainment. Therefore, 
determining the ports' contribution and impact of ozone 
precursors, NO<INF>x</INF> and volatile organic compounds, 
particularly highly reactive volatile organic compounds, is our 
priority. Our needs relate more specifically to ozone 
precursors. Although this bill would provide some 
NO<INF>x</INF> reductions, it is not primarily aimed at 
reducing ozone.
    Last, in order to fully understand how sources affect air 
quality, and thus to compose and implement effective 
regulations, it is necessary to accurately identify and 
quantify air emissions. As more areas move forward with ozone 
attainment demonstration modeling, the need to gather air 
emission inventories for marine traffic and port activities, 
much like we do for stationary sources, has become evident. If 
our air quality planning efforts are to be successful.
    Emission inventories are critical in assessing air quality 
impacts and are the starting point for estimating needed 
emission reductions and possible control strategies. It should 
be noted that as proposed, S. 1499 has no provisions for ports 
to prepare or submit air emission inventories, or for funding 
for States to prepare such inventories. We would respectfully 
suggest that a requirement for ports to develop and update at 
specific intervals an air emissions inventory is necessary and 
requisite in order to ensure that emissions reductions are 
quantifiable and verifiable.
    In closing, we do believe that assessing air emission 
impacts from ports and marine vessels is important to further 
improve air quality and to assist the States in reaching 
Federal and local air quality goals. We commend the Committee 
for raising this most important subject and we look forward to 
working with our regulatory and industry partners in addressing 
this issue.
    [The prepared statement of Ms. Mouton follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


        Responses by Jennifer J. Mouton to Additional Questions 
                           from Senator Boxer

    Question 1. In light of these types of health effects, 
shouldn't efforts be made to limit or reduce such impacts of 
marine vessel diesel emissions as soon as possible?
    Response. The Louisiana Department of Environmental Quality 
supports the efforts of U.S. EPA to reduce and or limit impacts 
from emissions from marine vessel diesel engines. We also 
support EPA's efforts in reducing emissions from ocean going 
vessels by working toward international agreement through the 
MARPQL Treaty. EPA's proposal for regulating marine and 
locomotive diesel engines is a critical step in improving human 
health by providing much needed emission reductions. Therefore, 
we support Federal efforts to help states with nonattainment 
areas achieve compliance with the national ambient air quality 
standards as expeditiously and practically as possible.

    Question 2. Data from a study of mortality resulting from 
marine vessel emissions, Corbett and Winebrake 2007, indicate 
that there are between 100 and 150 premature deaths in 
Louisiana caused by pollution emitted from marine vessels each 
year. Do you support measures to reduce the impacts of 
pollution such as those described in that study? If so, please 
provide the measures that you support.
    Response. The Louisiana Department of Environmental Quality 
(LDEQ) consistently supports measures that serve to reduce the 
impacts of pollution on human health and the environment. 
Compliance with the PM<INF>2.5</INF> standards serves to 
protect the public from serious health problems ranging from 
increased symptoms, hospital admissions and emergency room 
visits for people with heart and lung disease, to premature 
death in people with heart or lung disease. The concentrations 
of in PM<INF>2.5</INF> in Louisiana have historically been in 
compliance with the Federal PM<INF>2.5</INF> standards. In 
addition, based on modeling conducted by the Environmental 
Protection Agency, Louisiana is projected to continue to comply 
with the PM<INF>2.5</INF> standards through the year 2020.
    The Corbett and Winebrake 2007 modeling exercise was 
designed to estimate the potential contribution of oceangoing 
ship emissions to ambient PM concentrations on a global basis 
with interpretative focus on various regions of the world. This 
type of study is very useful for gaining insight into trends in 
ambient PM concentrations over large regions, as discussed in 
the study, but does not serve to provide meaningful 
quantitative results for small, select areas such a a single 
State within a modeled region. It also important to note that 
uncertainty is inherent in any modeling exercise and that the 
interpretation of the modeling results should always take into 
consideration those uncertainties and the level of confidence 
that can be placed in quantitative modeling results.

    Senator Boxer. Thank you very much.
    I want to point out that there is a national call for this 
legislation. People have a right to say they don't think there 
should be and they don't agree there should be, but the 
National Association of Clean Air Agencies, representing the 
pollution control agencies in 53 States and territories, and 
over 165 metropolitan areas across the Country, have given us 
their support. So I think it is very important.
    I guess I have some questions for Dr. Wallerstein, and I 
will save the New Jersey questions for Senator Lautenberg to 
ask.
    You note that the National Association of Clean Air 
Agencies and many State agencies support this bill. Would you 
explain why you think there is wide support for this 
legislation nationwide?
    Mr. Wallerstein. It is for the simple reason that ship 
emissions are a major pollution source throughout the coastal 
United States, and that the emissions from those ships travel 
large distances, impacting other communities that are more 
inland.
    We have also learned regarding carcinogenic risk that 
proximity matters, that even if you attain a Federal ambient 
air quality standard for a pollutant such as particulates, if 
you are near the sources of particulate pollution, in this case 
diesel exhaust, then you are exposed to very high levels of 
carcinogenic risk.
    We have done calculations in Southern California, as an 
example, where our staff has estimated that more than four 
million Southern Californians are exposed to a carcinogenic of 
greater than 100 in a million due to ship emissions alone in 
out twin ports. While the number is obviously going to be a bit 
different depending upon which port area one looks at, it is 
quite clear that you are going to have significant risk in any 
major port area.
    I might last note that if you look at that map on the right 
and you see the bright pinkish color going down the California 
coastline, that communities even such as Santa Barbara, 
California, which most people think of as having clean air, are 
gravely concerned about ship emissions in the channel and the 
effect that it has on their citizens. In fact, ship emissions 
were their No. 1 pollution source.
    Senator Boxer. So if you look at this chart showing the 
nationwide problem, we see people are dying early in really all 
of these port areas, all of these port areas.
    Mr. Wallerstein. That is correct, Madam Chair.
    Senator Boxer. And so you think, as I do, and I know it is 
a national issue. Just because I wrote the bill doesn't mean it 
is not important to Senators from all over the Country, and we 
have many Senators on this bill from places pretty far away 
because people are dying in these other areas. Is that correct?
    Mr. Wallerstein. That is correct, Madam Chair. That comes 
from a study that was published in a highly noted journal, 
Environmental Science and Technology, and is a peer-reviewed 
study before publication in that journal.
    Senator Boxer. OK. I thought your testimony when it came to 
showing the cost of how much a TV would go up in cost and how 
much a pair of shoes, I think you said, would go up. Could you 
repeat that? Because I think if you ask the people of this 
Country if they would be willing to pay a little bit more if it 
meant that we could save 2,000 to 5,000 lives, and I see we 
have a chart here that shows a plasma TV, 43 cents to 96 cents; 
a pair of shoes not even a penny more, and U.S. deaths avoided 
1,200 to 3,000 per year minimum, and the monetized benefit, $7 
billion to $18 billion; the benefit-to-cost ratio of 4.1 to 11, 
meaning it cost four and you get eleven?
    Mr. Wallerstein. It means the health benefits----
    Senator Boxer. It goes from four to one to 11 to one.
    Mr. Wallerstein. That is correct.
    Senator Boxer. Somewhere in there. My long-suffering staff, 
no, it is OK, Eric. We are fine, Eric. Thank you.
    [Laughter.]
    Senator Boxer. I appreciate all these charts and what you 
have done to help prepare for this, Eric, and all the staff. 
Thank you.
    Let me just say, because this will be my concluding remarks 
in terms of this panel, that I want to thank all three of you 
for coming here today, and to the panel before, if I didn't 
thank them as well.
    You know, sometimes there are issues that are right in 
front of you that I call no-brainers. It is really going to be 
such a benefit. A few special interests are going to say, well, 
we support the idea, but not so fast, go a little slower. And I 
appreciate where they are coming from. It is OK.
    But I think history has shown us that when we are timid 
when it comes to the environment, we make a mistake. When we 
step out there and we are not afraid to act, and here is sort 
of the last piece. We have dealt with trucks. We have dealt 
with cars. We are dealing with these others. We are dealing 
with rail, although I don't think we are doing enough on rail, 
but we are dealing with rail. And this is the last piece, with 
27,000 parts per million when it should be 1,000. Think about 
it. It is outrageous.
    The other fact is we know it is foreign ships. It is 
foreign ships that are causing the problem. So what we want to 
do is say when you come within 200 miles of a port, cleanup 
your act because we love our kids and we love our families and 
we love our people, and we want to protect them, and we welcome 
you into our port, but cleanup your act. That is it, and it is 
very simple.
    You know, I am going to push very hard for this, along with 
other colleagues on the Committee. If we get resistance to it, 
let the people see who is for it and who is against it. That is 
what makes our democracy tick, but we will push hard for this.
    Thank you for your help.
    Senator Vitter.
    Senator Vitter. Thank you, Madam Chair.
    And thanks to all of you for being here.
    I want to pick up on an earlier theme, because I think it 
is very interesting to see who is for the bill, where they come 
from, are they in or out of compliance.
    Dr. Wallerstein, am I correct that your area is out of 
compliance for NO<INF>x</INF> and particulate matter?
    Mr. Wallerstein. Yes, we are out of compliance for 
particulate and ozone.
    Senator Vitter. I am sorry, ozone not NO<INF>x</INF>.
    Mr. Wallerstein. The oxides of nitrogen, or NO<INF>x</INF> 
, is a building block to ozone formation, as well as 
particulate formation, Senator.
    Senator Vitter. OK. And you believe this maritime traffic 
is a significant contributor to that?
    Mr. Wallerstein. We know it is, as well as causing 
carcinogenic risks to the population, yes.
    Senator Vitter. So in your area, what have you all done 
about that?
    Mr. Wallerstein. We are doing a number of things. We have 
been working with our ports on requirements that the ports 
could put into place through leases to tenants.
    Senator Vitter. I am sorry. That would restrict traffic or 
mandate certain air standards?
    Mr. Wallerstein. The ports would specify certain provisions 
like clean equipment on docks as a requirement.
    Senator Vitter. Excuse me. I am talking about ships. What 
have you all done with regard to ships in your area to address 
this?
    Mr. Wallerstein. Well, the principal thing that has been 
done in Southern California or throughout the State of 
California is our State Air Resources Board enacted a 1,000 to 
2,000 ppm sulfur limit for fuel used in auxiliary engines, 
which has been challenged in court and is now in litigation 
where the plaintiffs have said if anyone is to establish such a 
standard, it should be the U.S. EPA.
    Senator Vitter. But certainly, it is beyond question that 
your port, for instance, could limit activity and traffic if it 
wanted to.
    Mr. Wallerstein. There is no need for it to do such----
    Senator Vitter. But you are out of compliance, aren't you?
    Mr. Wallerstein. Well, as Maersk has demonstrated, it is 
not necessary because they are already switching to low-sulfur 
fuel as they come within 24 miles of our ports.
    Senator Vitter. And so you all are now in compliance 
because of that?
    Mr. Wallerstein. No. It is one shipping line demonstrating 
what we believe everyone else can do, which will provide a 
piece to the overall puzzle of Federal attainment.
    Senator Vitter. I guess what I am suggesting is why don't 
you all lead and take local action and lead the rest of the 
Country by mandating that in your port, by mandating a 
limitation or a decline of traffic or activity so that you get 
into compliance.
    Mr. Wallerstein. Well, Senator, we believe that you can put 
pollution controls in place and allow for economic development, 
and that is why the Port of Long Beach and the Port of Los 
Angeles support this bill and other actions. I want to assure 
you that if you look across the board at what is being done in 
Southern California, we are in a leadership role in pollution 
control for all sources, including those related to maritime 
operations.
    Senator Vitter. Well, again I would beg to differ because 
there are actions you all could take locally with regard to 
this traffic, with regard to these ships, and that activity, 
and you have chosen not to do so. I would suggest the same in 
New Jersey. You mentioned doing a lot of things, which you are, 
ground-based.
    I believe I am correct, you haven't restricted port 
activity or capped that or limited that, to have an impact with 
regard to these emissions, even though you are out of 
compliance with regard to the relevant particulate matter and 
NO<INF>x</INF> standards.
    Ms. Jackson. Thank you, Senator.
    We wouldn't consider that an appropriate public policy 
response to the air pollution problem when there is such an 
easy one afforded by this bill. This bill gives us an 
incredibly important tool to address the source of pollution, 
rather than stopping the ships in their tracks. We actually 
believe that our citizens and the folks on the East Coast 
deserve the goods and services that the ships bring in. Why not 
simply control the pollution as the ships approach our port?
    Senator Vitter. What about an amendment to the bill to 
limit the applicability to ports with a non-attainment issue?
    Ms. Jackson. In New Jersey, about one-third of our air 
pollution, Senator, comes from out of State. We have several 
studies that show that because of the way the wind blows, you 
can see what the Northeast Corridor looks like. Some of that 
are our own cars. Some of that are trucks. We perfectly and 
willingly acknowledge that, and are working on those issues. 
But we know that no matter we do, one-third of our air 
pollution comes from sources outside of our attainment area. So 
I wouldn't agree that that would effectively reduce our 
problem.
    Senator Vitter. OK. Well, I will wrap up, but I just want 
to point out the strong support on the Committee, with Senator 
Lautenberg and Senator Cardin, along with Senator Boxer. All of 
those port areas, all of those coastal areas are in non-
attainment. Mine is not.
    I don't think that is a coincidence that is unrelated to 
our approach to this bill because speaking for coastal 
Louisiana ports, we are not in that non-attainment.
    Ms. Jackson. Thank you, Senator. It sounds like you still 
have an ozone issue in the area surrounding the Port of New 
Orleans and Baton Rouge.
    Senator Vitter.
    [Remarks off microphone] and yet we just met the 1-hour 
standard. We are working to meet the 8 hour standard, but that 
is----
    [remarks off microphone].
    Senator Boxer. OK. Before I call on Senator Lautenberg, you 
all are not in attainment in ozone. So you all could stop some 
traffic until you all get in compliance. But let me just say 
this, because I feel so strongly about it. We are here as 
national legislators. We are here to work together for the good 
of the people of the United States of America. OK?
    Now, again I just want to make a point. People in Louisiana 
are dying premature deaths because of this problem, people in 
California, people in New Jersey, people in Florida and people 
inland. If we suddenly turn to say to one region, just close 
down your port; we are happy to take it.
    I will tell you why I am against it. Because then the 
people in Louisiana, who don't seem to want to move such a 
bill, they will really have a hot spot of death. And I am not 
interested in saying one State do it and then the other States 
become the hot spots of death. That is not my purpose here, 
because I am an American and I think every single family 
deserves to have clean air, whether they live in Louisiana or 
they live in San Francisco or Los Angeles, San Diego, Trenton, 
New Jersey, on and on.
    And that is why this is so interesting. What I really find 
interesting is Senator Vitter's continual repetition that the 
only people who want this are the people who are not in 
attainment, when you have a national organization that 
represents every State in the Union backing this. So the facts 
simply don't comport with that theory. Again, I would say to my 
colleague to take a look at this letter, because it represents 
every State in the Union.
    OK. Senator Lautenberg.
    Senator Lautenberg. Thank you, Madam Chairman.
    This is a place where anomalies are not unusual. I think 
about how our dear colleague, Mary Landrieu, is constantly 
begging, begging for Federal funds to help Louisiana get back 
on its feet. By the way, we support it.
    So when we look at what the Bush administration has done to 
demonstrate worldwide leadership to improve air quality at 
ports by strengthening international standards, I don't think 
there is any evidence of that. Any of you can answer. 
Commissioner Jackson or Dr. Wallerstein, would you feel 
equipped to answer that question?
    Ms. Jackson. Thank you, Senator.
    I was heartened to hear the representative from EPA earlier 
say that they are proceeding with negotiations. I think the 
issue is time, and I also think that there have been arguments 
made by EPA in the past that they didn't have the legal 
authority to push these reductions. This legislation would take 
that issue off of the table.
    Senator Lautenberg. Thanks very much.
    And because one of the things that stands out in my mind is 
kind of let the States take care of themselves, when it just 
doesn't wash. Otherwise, California with its PAVLE standards, 
Madam Chairman, would be able to move ahead, instead of having 
EPA obstruct that decision by California to go ahead with it. 
But there are times when States would like to do things to 
improve air quality and environmental conditions, and we don't 
have the wholehearted support of EPA in many of those 
occasions, and want to reduce the standards for the number of 
chemicals, for right to know and things of that nature. So we 
are fighting an uphill battle we shouldn't have to fight.
    Ms. Jackson, you mentioned that our low-income residents in 
parts of New Jersey pay high health risks from maritime air 
pollution. Because of the perilous growth and incidence of 
asthma, I note that more than 150 million Americans, Dr. 
Wallerstein, over half of the Nation's population live in areas 
with poor air quality. The prevalence of asthma in the United 
States has increased more than 75 percent since 1980. Does that 
kind of approach an epidemic proportion, wouldn't you think?
    Mr. Wallerstein. Yes, it does. There are studies that have 
been conducted in Southern California, for example, that show 
that children that live in our most air-polluted areas have 
higher incidence of asthma, and children that play two sports 
instead of one have an even higher incidence of asthma in those 
communities. So there is a direct relationship.
    Senator Lautenberg. So Ms. Jackson, why then isn't there a 
greater sense of urgency for States to act to reduce the health 
risks in the absence of strong Federal regulation, and ask for 
Federal support for these things?
    Ms. Jackson. Thank you, Senator.
    States are doing just that with NACA and State support of 
this bill. As you know, the county that Newark resides in, 
Essex County, has the highest asthma death rates, mortality 
rates in our State. Those rates are even higher among the 
minority population for issues that probably relate to 
everything from income level to the ability and access to 
adequate health care.
    Again, I just need to remind the Committee that those 
health care costs are borne by society, just as surely as the 
ravages of a hurricane are borne by society. This is a national 
health epidemic and it is a national problem.
    Senator Lautenberg. You made mention of this I think 
before, but I just want to focus on it for a minute more. Ships 
going into ports of neighboring States, they contribute without 
a shred of doubt to poor air quality in New Jersey. So even if 
we have strong State law in place regarding pollution from 
ships, we are not protected.
    Ms. Jackson. Absolutely right, Senator. One-third of our 
air pollution comes from out of State, one-third.
    Senator Lautenberg. Thank you.
    Thanks very much, Madam Chairman.
    Thank you to all the witnesses for your testimony. We 
appreciate it.
    Senator Boxer. Thank you, colleagues.
    We thank you very, very much for your presence here today. 
I would ask consent to place in the record the chart that I 
keep referring to, which by the way in case anyone wanted to 
know, it is a global assessment, Environmental Science and 
Technology 2007. It is a peer-reviewed study. And also a chart 
that shows, and this is so intriguing to me, the percentage of 
air pollution that is regulated from mobile source: 98 percent 
of pollution from passenger cars is subject to regulation; 98 
percent of pollution from trucks; 97 percent pollution from 
off-road equipment; 58 percent of pollution from locomotives; 
and only 11 percent from ships. So it is just lagging.
    [The referenced documents follow:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Senator Boxer. As I say, it is a place where we can really 
feel the benefits. Even Ms. Mouton, in your very good 
testimony, you say there would be benefits. You acknowledge 
that. We appreciate that.
    And then this cost of low-sulfur fuel, the cost of getting 
to low-sulfur fuel, what it would cost, these really pennies 
for consumer goods, which I think is also key.
    I think it is a win-win. I am really sorry that we don't 
have, you know, agreement here across the line today, but we 
will work hard to get something done.
    We so appreciate everybody being here today. Again, to our 
young man who graced us with his testimony, I think everybody 
felt it was really important and we thank you so much for being 
here.
    We do stand adjourned on this Valentine's Day.
    [Whereupon, at 12:35 p.m. the committee was adjourned.]
  

                                  <all>

</pre></body></html>
